<html>
<title> - THE REPORT OF THE GENERAL ACCOUNTING OFFICE ON NUCLEAR NONPROLIFERATION AND EFFORTS TO HELP OTHER COUNTRIES COMBAT NUCLEAR SMUGGLING</title>
<body><pre>[Senate Hearing 107-813]
[From the U.S. Government Printing Office]




                                                        S. Hrg. 107-813

THE REPORT OF THE GENERAL ACCOUNTING OFFICE ON NUCLEAR NONPROLIFERATION 
      AND EFFORTS TO HELP OTHER COUNTRIES COMBAT NUCLEAR SMUGGLING

=======================================================================

                                HEARING

                               before the

           SUBCOMMITTEE ON EMERGING THREATS AND CAPABILITIES

                                 of the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 30, 2002

                               __________

         Printed for the use of the Committee on Armed Services






                         U.S. GOVERNMENT PRINTING OFFICE
83-977 PDF                       WASHINGTON : 2003
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2104 Mail: Stop IDCC, Washington, DC 20402-0001








                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

EDWARD M. KENNEDY, Massachusetts     JOHN WARNER, Virginia
ROBERT C. BYRD, West Virginia        STROM THURMOND, South Carolina
JOSEPH I. LIEBERMAN, Connecticut     JOHN McCAIN, Arizona
MAX CLELAND, Georgia                 BOB SMITH, New Hampshire
MARY L. LANDRIEU, Louisiana          JAMES M. INHOFE, Oklahoma
JACK REED, Rhode Island              RICK SANTORUM, Pennsylvania
DANIEL K. AKAKA, Hawaii              PAT ROBERTS, Kansas
BILL NELSON, Florida                 WAYNE ALLARD, Colorado
E. BENJAMIN NELSON, Nebraska         TIM HUTCHINSON, Arkansas
JEAN CARNAHAN, Missouri              JEFF SESSIONS, Alabama
MARK DAYTON, Minnesota               SUSAN COLLINS, Maine
JEFF BINGAMAN, New Mexico            JIM BUNNING, Kentucky

                     David S. Lyles, Staff Director
              Judith A. Ansley, Republican Staff Director

                                 ______

           Subcommittee on Emerging Threats and Capabilities

                 MARY L. LANDRIEU, Louisiana, Chairman

EDWARD M. KENNEDY, Massachusetts     PAT ROBERTS, Kansas
ROBERT C. BYRD, West Virginia        BOB SMITH, New Hampshire
JOSEPH I. LIEBERMAN, Connecticut     RICK SANTORUM, Pennsylvania
BILL NELSON, Florida                 WAYNE ALLARD, Colorado
JEAN CARNAHAN, Missouri              TIM HUTCHINSON, Arkansas
MARK DAYTON, Minnesota               SUSAN COLLINS, Maine
JEFF BINGAMAN, New Mexico            JIM BUNNING, Kentucky


                                  (ii)








                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

The Report of the General Accounting Office on Nuclear Nonproliferation 
      and Efforts to Help Other Countries Combat Nuclear Smuggling

                             july 30, 2002

                                                                   Page

Jones, Ms. Gary L., Director, Natural Resources and Environment, 
  General Accounting Office......................................    66
Caravelli, John M., Assistant Deputy Administrator for 
  International Materials Protection and Cooperation, National 
  Nuclear Security Administration, U.S. Department of Energy.....    74
Bronson, Lisa, Deputy Under Secretary of Defense for Technology 
  Security Policy and Counter-Proliferation and Director, Defense 
  Technology Security Administration.............................    76
Wulf, Ambassador Norman A., Special Representative to the 
  President for Nonproliferation, Department of State............    83
Ahern, Jayson P., Assistant Commissioner, Office of Field 
  Operations, United States Customs Bureau; Accompanied by David 
  Harrell, Chief, International Advisory Programs, U.S. Customs 
  Bureau.........................................................    87

                                 (iii)

 
THE REPORT OF THE GENERAL ACCOUNTING OFFICE ON NUCLEAR NONPROLIFERATION 
      AND EFFORTS TO HELP OTHER COUNTRIES COMBAT NUCLEAR SMUGGLING

                              ----------                              


                         TUESDAY, JULY 30, 2002

                           U.S. Senate,    
           Subcommittee on Emerging Threats
                                  and Capabilities,
                               Committee on Armed Services,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:37 p.m. in 
room SR-232A, Russell Senate Office Building, Senator Mary L. 
Landrieu (chairman of the subcommittee) presiding.
    Committee members present: Senators Landrieu, Bill Nelson, 
Carnahan, Bingaman, Roberts, and Allard.
    Majority staff members present: Madelyn R. Creedon, 
counsel; and Peter K. Levine, general counsel.
    Minority staff members present: Edward H. Edens IV, 
professional staff member; and Mary Alice A. Hayward, 
professional staff member.
    Staff assistants present: Leah C. Brewer and Thomas C. 
Moore.
    Committee members' assistants present: Terrence E. Sauvain, 
assistant to Senator Byrd; Marshall A. Hevron and Jeffrey S. 
Wiener, assistants to Senator Landrieu; Peter A. Contostavlos, 
assistant to Senator Bill Nelson; Neal Orringer, assistant to 
Senator Carnahan; George M. Bernier III, assistant to Senator 
Santorum; Robert Alan McCurry, assistant to Senator Roberts; 
Kristine Fauser, assistant to Senator Collins; and Derek 
Maurer, assistant to Senator Bunning.

    OPENING STATEMENT OF SENATOR MARY L. LANDRIEU, CHAIRMAN

    Senator Landrieu. Good afternoon, everyone. Our hearing 
will come to order. This is a hearing of the Emerging Threats 
and Capabilities Subcommittee on nuclear smuggling. I welcome 
all of our panelists and those that are with us today.
    We have been informed that there will be a Senate vote at 
2:45. We are going to try to get through our opening 
statements, which are relatively brief. Then Senator Roberts 
will go vote first and then I will follow him, hoping to keep 
the hearing going because it is very important that we cover 
our work.
    Let me welcome all of our witnesses this afternoon on this 
timely and very important topic of nuclear smuggling. About 18 
months ago, Senator Roberts asked the General Accounting Office 
(GAO) to look into the U.S. efforts to combat smuggling in the 
countries of the former Soviet Union and Eastern Europe to 
determine how well the assistance is coordinated among Federal 
agencies and to assess how effective that assistance has been.
    GAO released the report in June of this year, prompting 
this hearing. This report is important in that it sheds light 
on some of the mistakes, as well as some of the successes, of 
the past. But the past should not be the primary focus of this 
hearing. I am hoping that we will focus on the future. We 
should learn from GAO and apply these lessons to our future 
work.
    The most important goal is to learn from the witnesses of 
the various agencies that we have here today about what you are 
planning to do in the future. With this knowledge, our 
subcommittee can be a stronger partner in moving this program 
forward and providing a stronger framework in which agencies 
can and should work.
    In the past 10 years, according to this report, the various 
agencies involved in the effort to prevent nuclear smuggling 
have spent approximately $86 million, an average of about $9 
million a year. Clearly, we are underinvesting in this 
important endeavor. With their proposed 2003 fiscal year 
budgets, the agencies here today will be in a position to do 
much.
    This year's Department of Defense budget request to prevent 
nuclear smuggling alone is $40 million, which will be almost 50 
percent, spent in 1 year, of what we spent in half of the last 
decade. The Department of Energy funding request for fiscal 
year 2003 for the Second Line of Defense programs is $24 
million. The State Department's request is approximately $37 
million. When combined, these agencies will represent an 
investment in anti-smuggling activities of over $100 million, 
20 percent more than the total that has been spent total in the 
last 9 years.
    DOD in particular, but all of these programs, are on the 
verge of significant growth. Therefore, this report is very 
timely. This subcommittee has a tremendous responsibility, as 
do the agencies themselves, to heed the warnings of this 
report. The agencies must better coordinate their activities, 
more accurately determine the threats, and respond as 
effectively as possible.
    The threat of nuclear smuggling is real. This report notes 
that there have been 181 incidents involving illicit 
trafficking in nuclear or radioactive materials, including 
weapons-usable materials, since the 1990s. Seventeen of these 
attempts have involved highly enriched uranium or plutonium. 
The efforts to smuggle nuclear materials have ranged from 
fairly sophisticated efforts involving insiders, such as two 
attempts involving naval officers and enlisted personnel trying 
to smuggle quantities of highly enriched uranium from Russian 
naval facilities, to black marketeers involved in an effort to 
sell plutonium at the Munich Airport, to a very strange case 
where three men in St. Petersburg were arrested when highly 
enriched uranium was discovered in a jar in a refrigerator that 
belonged to one of them.
    The 181 cases cited by GAO are probably just the tip of the 
iceberg. The general consensus is that there have been many 
more attempts that have gone unreported. Efforts to prevent 
nuclear materials smuggling are complicated by repeated scams, 
claims that these materials are available for sale that have 
turned out to be fraudulent. In addition, other complications 
obviously exist.
    Multiple layers of defense, or defense in depth, is the key 
to preventing nuclear and radioactive materials and weapons 
from falling into the wrong hands and being used against us. 
The first line of defense is to secure materials on site, 
obviously in country. The Second Line of Defense is to prevent 
the materials from moving outside of the country of origin 
through other countries. The third line of defense is to 
prevent the materials from getting through U.S. borders.
    Today's hearing will focus primarily on the Second Line of 
Defense, stopping nuclear materials at the borders before they 
leave the country of origin and before they move through 
neighboring countries. To say this is a difficult task is an 
understatement. The U.S. Government has spent hundreds of 
millions of dollars ensuring that materials are contained on 
site in countries of the former Soviet Union. We know that this 
is essential, but that it is not enough. No matter what we and 
others do in the first line of defense it cannot be 100 percent 
effective.
    It is like classified documents. There are vast quantities 
of radiological and weapons-usable material under varying 
levels of protection. Like classified documents, unfortunately, 
they will occasionally get out. But hopefully this Second Line 
of Defense will be ready when the first line fails, as in the 
past, and it surely will again.
    Today we will hear from Ms. Gary Jones, Director, Natural 
Resources and Environment Division of the General Accounting 
Office. She and her team were the authors of this report and we 
are looking forward to hearing about this report in more 
detail.
    To facilitate the discussion, all of our witnesses will be 
on one panel today. We realize this is a bit unusual, but we 
felt it was important to have all the witnesses available for 
this discussion.
    Our representatives are Ambassador Norman Wulf, Special 
Representative to the President. Ambassador Wulf is responsible 
for coordinating the various U.S. nonproliferation efforts, 
including our nuclear smuggling efforts. Mr. Jack Caravelli, 
Assistant Deputy Administrator for International Materials 
Protection and Cooperation. Mr. Caravelli is responsible for 
the National Nuclear Security Administration's (NNSA) Second 
Line of Defense programs, as well as the first line of defense, 
the materials protection control and accounting program.
    Mr. Jayson Ahern, Assistant Commissioner, Office of Field 
Operations, U.S. Customs, where he is responsible for 
protecting U.S. borders from efforts to smuggle nuclear 
materials into the United States. He is accompanied by Mr. 
David Harrell, Chief, International Advisory Programs. He 
coordinates the Customs Bureau efforts in the former Soviet 
Union.
    Finally, Ms. Lisa Bronson, Deputy Under Secretary of 
Defense for Technological Security Policy and Counter-
Proliferation and Director, Defense Technology Security 
Administration--quite a title and quite a job. Ms. Bronson is 
responsible in the Office of the Secretary of Defense for 
threat reduction policy.
    I want to thank all of you for being here today to discuss 
this important and very challenging topic at a point where 
better coordination, as I said, and more effective cooperation 
is absolutely the order of the day. Given the amount of 
investment that this Congress seems willing to put toward the 
program based on the threat that we perceive as quite real, the 
public would be comforted to know that we are doing the very 
best job that we can.
    I want to thank Senator Roberts for actually requesting 
this report and note and thank him for his focus on this area 
even prior to September 11. Without his request, this report 
would not have even been conducted.
    Senator Roberts.

                STATEMENT OF SENATOR PAT ROBERTS

    Senator Roberts. Chairman Landrieu, thank you very much for 
holding this hearing. I would like to extend my personal 
welcome to all of the witnesses, to thank you for the time you 
have taken to prepare your remarks in regard to the 
subcommittee and for the job that you do.
    Last June, when I asked GAO to examine U.S. efforts to 
combat any nuclear smuggling overseas, I did so because I 
believed that the many programs being implemented by the 
numerous agencies were doing their best to address the issue of 
nuclear smuggling, but I was not confident that each agency 
knew what the other was doing. I was also not confident that 
the equipment that was being provided was necessarily the most 
appropriate for the situation, and I was not confident there 
was not duplication of effort.
    I wanted the experience and lessons learned by each of 
these programs to be leveraged into an even more effective U.S. 
effort. So consequently, I asked the GAO to take a look at 
these programs and number 1, identify all U.S. efforts that 
were devoted to combating the threat of illicit trafficking of 
nuclear materials and the amount of U.S. funding spent on this 
effort; number 2, to determine how well these efforts were 
coordinated; and number 3, to assess how effective the 
equipment and training to detect nuclear smuggling was 
overseas.
    The subsequent GAO report, which I will include for the 
record at the end of my statement, revealed some good things 
and some things that certainly need improvement. Thus, I asked 
the chairman to hold a hearing to review these findings and the 
recommendations to give both the GAO and the agencies an 
opportunity to present their views to the subcommittee. Again, 
I thank the distinguished chairman.
    Most important, this hearing is also an opportunity to 
discuss the role these border security programs are playing in 
the post-September 11 world. Because the nature of the threat 
today is more real than ever before, I believe it is even more 
critical now to ensure that all U.S. efforts to detect, to 
preempt, to deter and respond to nuclear terrorism are as 
effective and robust as possible.
    We know there are terrorists interested in obtaining 
nuclear materials to further their agendas. We know the level 
of threat has increased since September 11. We know we need to 
act and improve our abilities to thwart such actions. Most 
importantly, we now know that this threat does not just reside 
at faraway borders; this threat is at our back door.
    For this reason, I asked the GAO, as a follow-on to their 
report, to review what we are doing at home to combat nuclear 
smuggling. I was concerned that with all the effort being 
expended overseas, that is understandable, but that Russia 
could actually have better nuclear detecting capabilities on 
their borders than the United States has at home. Both should 
have these capabilities. I want the United States to take 
advantage of the expertise and knowledge gained by the overseas 
programs for our use at home.
    I look forward to hearing from all the witnesses today. I 
believe you are doing very critical work in protecting our 
Nation. I commend you for your perseverance and dedication. I 
thank you for the time you have devoted to implementing these 
programs, and I now look forward to a dialogue during the 
question and answer period.
      
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
      
    Senator Landrieu. Thank you, Senator.
    Senator Bill Nelson. Madam Chairman, could I just add one 
comment?
    Senator Landrieu. I am sorry, Senator Nelson. Go right 
ahead.
    Senator Bill Nelson. I believe that there is no subject 
more important to the future of this country and to its 
security than what we are examining today. In addition to what 
the distinguished chairman and ranking member have already 
shared, I would extend my concern to the fact that the 
enormously progressive first step that we have taken, for 
example in the Moscow Treaty, taking the weapons off the 
Intercontinental Ballistic Missiles (ICBM), then there ought to 
be a plan in place, which there is not, of destroying those 
weapons; and there ought to be a negotiated protocol with 
Russia that would go about destroying those weapons that are 
taken off the ICBMs; as well as the issue that has not even 
been addressed, which is the tactical nuclear weapons, as well 
as the fissionable material.
    Speaking of the fissionable material, Madam Chairman, what 
I would like to further add to the comments made by you and 
Senator Roberts, is the fact that we know what a dirty bomb 
would do in terms of fear, panic, and economic disruption, even 
if it would not cost a lot of life. What is an easy source of 
radioactive material? What we have in all of our hospitals in 
this country. So what is the protection of that radioactive 
material, as well as the bomb grade stuff that we usually talk 
about?
    Thank you, Madam Chairman.
    Senator Landrieu. Excellent point. Thank you, Senator. Why 
don't we begin with you, Ms. Jones?

STATEMENT OF MS. GARY L. JONES, DIRECTOR, NATURAL RESOURCES AND 
             ENVIRONMENT, GENERAL ACCOUNTING OFFICE

    Ms. Jones. Thank you very much, Madam Chairman. I 
appreciate the opportunity to be here today to discuss our work 
on U.S. efforts to combat nuclear smuggling. The threat is 
serious. The International Atomic Energy Agency (IAEA) reports, 
as you noted, 181 confirmed cases of illicit trafficking of 
nuclear material since 1993. A significant number of these 
cases involve material that could be used to produce a nuclear 
weapon or a dirty bomb which uses conventional explosives with 
radioactive material to spread contamination.
    In my testimony this afternoon, I will describe how the 
United States helps other countries to combat illicit 
trafficking in nuclear materials and how much the U.S. has 
spent, how well U.S. agencies coordinate this assistance, and 
whether the assistance has been effective, and then what is 
being done on our borders. My statement is based on our May 16 
report to Senator Roberts and information we obtained from the 
U.S. Customs Service subsequent to issuing that report.
    U.S. efforts to help other countries combat nuclear 
smuggling are carried out by six Federal agencies: DOE, State, 
DOD, the U.S. Customs Service, the FBI, and the Coast Guard. 
From fiscal years 1992 through 2001, they spent about $86 
million to help about 30 countries, mostly in the former Soviet 
Union and Central and Eastern Europe. The six agencies have 
provided a variety of assistance. They have installed radiation 
detection equipment, such as portal monitors, mobile vans 
equipped with radiation detectors, and hand-held detectors. 
They have also helped countries improve their ability to 
control the export of goods and technologies that could be used 
to develop nuclear weapons and provided training to border 
guards and law enforcement officials.
    Although an interagency group chaired by the Department of 
State exists to coordinate U.S. assistance efforts, the six 
agencies did not always work together and there is no overall 
Government-wide plan to guide their efforts. The most troubling 
consequence of the lack of coordination is that DOE, State, and 
DOD have pursued separate approaches with the countries they 
work with to install radiation detection equipment at border 
crossings.
    Specifically, DOE and DOD have installed equipment that is 
better able to detect material that could be used for a nuclear 
weapon than the less sophisticated radiation detection monitors 
the State Department had installed. As a result, some 
countries' border crossings are more vulnerable than others.
    Concerning the effectiveness of the U.S. assistance, the 
assistance is in our national security interest, and we have 
found that the assistance is generally helping countries combat 
the smuggling of nuclear and other radioactive materials. 
Representatives from 17 recipient countries told us that U.S. 
assistance had provided needed equipment and training.
    However, there have been serious problems with the 
installation, use, and maintenance of this equipment. For 
example, about one half of the stationary radiation detection 
monitors provided to one country were never installed. In 
another country, a portal monitor was installed on an unused 
road and radiation detection equipment was stored in the 
basement of a U.S. embassy for about 2 years because of a 
disagreement about how to provide the power supply for the 
equipment.
    These and other problems are largely a result of the lack 
of oversight and follow up by the agencies providing the 
assistance. U.S. officials are trying to correct some of these 
problems by, among other things, stationing full-time advisers 
in countries receiving U.S. assistance.
    Let me turn to our borders for a moment. Customs Service 
officials told us that since September 11, antiterrorism 
efforts, including detecting nuclear smuggling, have become a 
top U.S. Customs Service priority. Customs relies on a three-
part strategy to combat nuclear smuggling: training, targeting, 
and technology.
    For example, Customs plans to train up to 140 of its 
approximately 7,500 inspectors to detect nuclear material by 
the end of fiscal year 2002. While Customs has data and an 
automated system to screen information, Customs officials told 
us that one of its greatest needs is better information to 
target shipments more accurately.
    Looking at technology, Customs officials told us that they 
rely on radiation pagers, personal detectors designed to be 
worn on the belt, as the primary equipment to detect nuclear 
material and plans to make the pagers standard equipment for 
each of the agency's 7,500 inspectors by the end of 2003.
    Unfortunately, the pagers are personal safety devices, not 
search instruments, since they have a limited range and were 
not designed to detect weapons-usable nuclear material. Customs 
does plan to purchase 400 portal monitors, about half this 
fiscal year and half next fiscal year. While these purchases 
are a step in the right direction, Customs does not have a 
comprehensive strategic plan to guide its anti-terrorism 
efforts. Such a plan at a minimum would assess vulnerabilities 
and risks, identify the complement of radiation detection 
equipment that should be used at each border entry point, and 
whether the equipment could be immediately deployed, and 
develop measures to ensure that the equipment purchased is 
adequately maintained.
    However, it is not enough to simply deploy equipment. 
Customs personnel must be effectively trained in radiation 
science, the use of the equipment, and identifying and 
responding to alarms. The strategic plan should identify total 
costs, annual budgetary needs and time frames for all these 
activities. The plan would provide for an integrated, 
systematic approach to Customs' antiterrorism efforts and 
provide the basis for setting priorities.
    Thank you, Chairman Landrieu. I would be happy to respond 
to questions at the appropriate time.
    [The prepared statement of Ms. Jones follows:]
                Prepared Statement by Ms. Gary L. Jones
    Madam Chairman and members of the subcommittee:
    I appreciate the opportunity to be here today to discuss our work 
on U.S. efforts to combat nuclear smuggling. The threat presented by 
nuclear smuggling is serious and poses national security concerns. 
Illicit trafficking in or smuggling of nuclear and other radioactive 
materials occurs worldwide and has reportedly increased in recent 
years. According to the International Atomic Energy Agency (IAEA) as of 
December 31, 2001, there have been 181 confirmed cases of illicit 
trafficking of nuclear materials since 1993. A significant number of 
cases reported by IAEA involved material that could be used to produce 
a nuclear weapon or a device that uses conventional explosives with 
radioactive material--a ``dirty bomb''--to spread contamination over a 
wide area. Nuclear materials can be smuggled across a country's border 
through a variety of means: they can be hidden in a car; train; or 
ship; carried in personal luggage through an airport; or walked across 
an unprotected border.
    In my testimony, I will address (1) the different U.S. federal 
programs tasked with combating the international threat of illicit 
trafficking in nuclear materials and the amount of U.S. funding spent 
on this effort; (2) how well the U.S. assistance is coordinated among 
federal agencies; (3) the effectiveness of the international 
assistance--equipment and training--provided by the United States; and 
(4) information about efforts to combat nuclear smuggling at U.S. 
borders. My statement today is based on the results of our May 16, 
2002, report on this subject\1\ and information we obtained from the 
U.S. Customs Service in May and June 2002.
---------------------------------------------------------------------------
    \1\ U.S. General Accounting Office, Nuclear Nonproliferation: U.S. 
Efforts to Help Other Countries Combat Nuclear Smuggling Need 
Strengthened Coordination and Planning, GAO-02-426, (Washington, DC: 
May 16, 2002).
---------------------------------------------------------------------------
    In summary, U.S. efforts to help other countries combat nuclear 
smuggling are divided among six federal agencies--the Departments of 
Energy (DOE); State; and Defense (DOD); the U.S. Customs Service; the 
Federal Bureau of Investigation (FBI); and the U.S. Coast Guard. From 
fiscal year 1992 through fiscal year 2001, the 6 agencies spent about 
$86 million to help about 30 countries, mostly in the former Soviet 
Union and Central and Eastern Europe, combat the threat of smuggling 
nuclear and other materials that could be used in weapons of mass 
destruction. The six agencies have provided a variety of assistance, 
including installing radiation detection equipment, helping countries 
improve their ability to control the export of goods and technologies 
that could be used to develop nuclear weapons, and providing other 
equipment and training to generally improve countries' ability to 
prevent nuclear smuggling. In particular, DOE has installed radiation 
detection monitors at eight border crossings and plans to install 
similar equipment at close to 60 sites in Russia through its Second 
Line of Defense program. The State Department has provided radiation 
detection monitors, mobile vans equipped with radiation detectors, 
hand-held detectors, and other assistance to about 30 countries. DOD 
has also provided equipment and other assistance to about 20 countries. 
With funds provided by State and DOD, the U.S. Customs Service, the 
FBI, and the Coast Guard have provided a range of training and 
equipment to border guards and law enforcement officials in numerous 
countries.
    Regarding coordination among the agencies, U.S. assistance is not 
effectively coordinated and lacks an overall governmentwide plan to 
guide it. Although an interagency group, chaired by the Department of 
State, exists to coordinate U.S. assistance efforts, the six agencies 
that are providing the assistance do not always work in unison. The 
most troubling consequence of the lack of coordination is that DOE, 
State, and DOD have pursued separate approaches to installing radiation 
detection equipment at countries' border crossings. As a result, some 
countries' border crossings are more vulnerable to nuclear smuggling 
than others. Specifically, DOE is installing equipment at border sites 
in Russia and DOD is installing equipment in another country that is 
better able to detect weapons-usable material (highly enriched uranium 
and plutonium), than the less sophisticated radiation detection 
monitors the State Department has installed in other countries.
    Concerning the effectiveness of the U.S. assistance, there is good 
news and bad news to report. First, the good news. We found that U.S. 
assistance is generally helping countries combat the smuggling of 
nuclear and other radioactive materials. Representatives from 17 
recipient countries told us that U.S. assistance had provided needed 
equipment and training. Without U.S. assistance, some countries would 
have neither radiation detection equipment at their borders nor 
training. The bad news, however, is that serious problems exist with 
the installation, use, and maintenance of equipment which has 
undermined U.S. efforts. For example, about one-half of the stationary 
radiation detection monitors provided to one country in the former 
Soviet Union were never installed, and radiation detection equipment 
provided by the State Department to Lithuania was stored in the 
basement of the U.S. embassy for about 2 years because the Department 
and Lithuanian officials disagreed about whether an existing power line 
was sufficient to operate the equipment or whether a new one costing 
$12,600 was needed. These and other problems are largely a result of 
the lack of oversight and follow-up by the agencies providing the 
assistance. We can report, however, that U.S. officials are trying to 
correct some of these problems by, among other things, stationing full-
time advisers in countries receiving U.S. assistance.
    Concerning efforts to combat nuclear smuggling at U.S. borders, 
Customs Service officials told us that since September 11, 2001, 
antiterrorism efforts, including detecting nuclear smuggling, have 
become a top U.S. Customs Service priority. Customs relies on a three-
part strategy to combat nuclear smuggling: training, targeting, and 
technology. Customs officials told us that they rely on radiation 
pagers-personal radiation detectors designed to be worn on a belt-as 
the primary equipment to detect nuclear material. Since fiscal year 
1998, Customs has deployed about 4,200 pagers among its approximately 
7,500 inspectors and plans to make the pagers standard equipment for 
every inspector. Most experts we talked to agree that radiation 
detection pagers are a useful tool in a layered system that includes 
various kinds of radiation detection equipment. However, DOE officials 
told us that they view the pagers as personal safety devices, not 
search instruments, and that the pagers are not designed to detect 
weapons-usable nuclear material. In addition to the pagers, Customs 
plans to purchase about 400 portal monitors over the next couple of 
years.
                               background
    Over the past decade, the United States has paid increased 
attention to the threat that unsecured weapons-usable nuclear material 
in the countries of the former Soviet Union, particularly Russia, could 
be stolen and fall into the hands of terrorists or countries seeking 
weapons of mass destruction. Several cases of illicit trafficking in 
nuclear material in Germany and the Czech Republic in the early to mid-
1990s underscored the proliferation threat. The United States responded 
to the threat by providing assistance to increase security at numerous 
nuclear facilities in the former Soviet Union, particularly in Russia, 
to prevent weapons-usable material from being stolen. This effort is 
considered the first line of defense against potential theft or 
diversion of nuclear materials.\2\
---------------------------------------------------------------------------
    \2\ See U.S. General Accounting Office, Nuclear Nonproliferation: 
Security of Russia's Nuclear Material Improving; Further Enhancements 
Needed, GAO-01-312 (Washington, DC: Feb. 28, 2001).
---------------------------------------------------------------------------
    Radiation detection equipment can detect radioactive materials in 
medicine and industry; in commodities that are sources of naturally 
occurring radiation, such as fertilizer; and in nuclear materials that 
could be used in a nuclear weapon. The capability of the equipment to 
detect nuclear material depends on many factors, including the amount 
of material, the size and capacity of the detection device, and whether 
the material is shielded from detection. Detecting actual cases of 
illicit trafficking in weapons-usable nuclear material is complicated 
because one of the materials that is of greatest concern--highly 
enriched uranium--is among the most difficult materials to detect 
because of its relatively low level of radioactivity. In contrast, 
medical and industrial radioactive sources, which could be used in a 
radiological dispersion device, are highly radioactive and easier to 
detect. Because of the complexities of detecting and identifying 
nuclear material, customs officers and border guards who are 
responsible for operating detection equipment must also be trained in 
using handheld radiation detectors to pinpoint the source of an alarm, 
identify false alarms, and respond to cases of nuclear smuggling.
 six federal agencies spent about $86 million to help countries combat 
                           nuclear smuggling
    U.S. assistance efforts, which consist primarily of providing 
equipment and training to combat nuclear smuggling and other materials 
that could be used in weapons of mass destruction, are divided among 
six federal agencies: DOE, DOD, State, the Customs Service, the FBI, 
and the Coast Guard. From fiscal year 1992 through fiscal year 2001, 
the agencies spent about $86 million in about 30 countries, including 
all of the countries of the former Soviet Union and numerous countries 
of Central and Eastern Europe. Providing radiation detection equipment 
is one of the many types of U.S. assistance. The United States has 
provided portal monitors (stationary equipment designed to detect 
radioactive materials carried by pedestrians or vehicles) and smaller, 
portable radiation detectors at border crossings in many countries of 
the former Soviet Union and Central and Eastern Europe. This equipment, 
which is installed at car and truck crossings, railroad crossings, 
seaports, and airports, serves two purposes: deterring smugglers from 
trafficking in nuclear materials and detecting cases of actual 
smuggling. Other equipment ranges from hand tools for taking apart and 
searching different compartments of a vehicle for hidden contraband to 
boats and vehicles for conducting patrols. Similarly, training provided 
ranges from hands-on instruction on using the equipment and conducting 
searches to high-level technical exchanges on establishing the legal 
and regulatory basis for preventing illicit trafficking and trade in 
sensitive goods that could be used in a nuclear weapon.
    DOE has two assistance programs: the Second Line of Defense program 
and the International Export Control Program (IECP). The Second Line of 
Defense program focuses on providing radiation detection equipment to 
Russia. DOE had spent $11.2 million through fiscal year 2001 to install 
70 portal monitors at 8 sites in Russia, including a Moscow airport. 
DOE has identified close to 60 sites in total in Russia where it plans 
to install portal monitors over the next decade at a cost of about $50 
million. IECP is designed to help countries of the former Soviet Union 
control the export of goods and technologies that could be used in the 
development of nuclear weapons and had spent $22 million on this effort 
through fiscal year 2001. Whereas the Second Line of Defense program 
focuses on the nuclear material needed to manufacture a nuclear bomb, 
the IECP focuses on other high-technology components needed for a bomb, 
such as equipment for enriching uranium. DOE also spent $1.8 million to 
support State and DOD programs to combat nuclear smuggling
    State spent $11.4 million through two programs-the Nonproliferation 
Disarmament Fund (NDF) and the Export Control and Related Border 
Security Assistance program. Through NDF, State spent $8.5 million to, 
among other things, install portal monitors in countries other than 
Russia, provide handheld radiation detectors, including radiation 
pagers, and mobile vans equipped with X-ray machines and radiation 
detectors. The Export Control and Related Border Security Assistance 
program spent $2.7 million, which included funding for mobile vans for 
Russia and Poland. It also spent $0.2 million on a program (implemented 
by Customs) to provide radiation detection equipment as part of its 
assistance to strengthen Georgia's overall border infrastructure and 
security against any type of crime, including nuclear smuggling.
    DOD has provided assistance under two programs: the Cooperative 
Threat Reduction (CTR) program and the International 
Counterproliferation program. The CTR program spent $16.3 million to 
assist five countries. Assistance included providing pedestrian portal 
monitors (to screen people) and handheld radiation detectors. In 
addition, CTR funds have been used to install portal monitors in one 
country. As part of the International Counterproliferation program, DOD 
spent $10.2 million to provide Customs and FBI training and equipment 
in 17 countries of the former Soviet Union and Central and Eastern 
Europe.
    Customs, FBI, and the Coast Guard have implemented programs with 
funding from State and DOD. Customs was the largest recipient of funds, 
spending $11.1 million to combat nuclear smuggling. Customs has 
provided training and equipment to customs agencies and border guards 
in close to 30 countries. The equipment includes radiation pagers as 
well as other high- and low-tech tools for conducting searches and 
detecting sensitive goods and materials, such as fiber-optic scopes for 
examining fuel tanks for contraband. Training includes providing 
assistance in operating the mobile vans equipped with radiation 
detectors, providing hands-on instruction for using equipment, and 
teaching techniques for investigating smuggling operations. In addition 
to equipment and training, Customs has stationed 22 full-time advisers 
covering 25 countries on behalf of State to help implement and 
coordinate the U.S. assistance.
    FBI and the Coast Guard have also played a role in combating 
nuclear smuggling. FBI spent $0.4 million in DOD funds to train and 
equip law enforcement agencies to investigate and respond to actual 
seizures of smuggled nuclear or other material. Training included 
seminars for high-level officials and courses on conducting 
investigations and managing a crime scene where a seizure has taken 
place. Equipment provided as part of the training included HAZMAT suits 
to make handling seized material safer, evidence collection and 
sampling kits, chemical detection equipment, and radiation pagers. The 
Coast Guard spent $1.6 million in funds received from State to 
interdict smuggled nuclear material. Assistance to one country includes 
providing two boats with spare parts and stationing an in-country Coast 
Guard adviser.
    u.s. assistance to combat nuclear smuggling lacks a coordinated 
                                approach
    The six agencies that are providing assistance to combat nuclear 
smuggling have not effectively coordinated their activities, and there 
is no overall governmentwide plan to guide their efforts. The most 
troubling consequence has been that DOE, State, and DOD are pursuing 
separate approaches to improving countries' border crossings, leaving 
some countries more vulnerable to nuclear smuggling than others. 
Specifically, the results of our review showed that DOE and DOD have 
installed more sophisticated portal monitors at border sites in Russia 
and another country and State has installed less sophisticated portal 
monitors in other countries. In addition, DOD's Cooperative Threat 
Reduction program in the mid-1990s provided less sophisticated portal 
monitors to still another country in the former Soviet Union. The more 
sophisticated portal monitors detect two types of radiation: gamma and 
neutron. The less sophisticated equipment installed by State and under 
DOD's CTR program detects only gamma radiation. The ability to detect 
neutron radiation translates into a greater ability to detect weapons-
usable plutonium.
    State Department officials said they used less sophisticated portal 
monitors because of their lower cost and the difficulty many countries 
would have in maintaining more sophisticated equipment. Because of the 
different circumstances existing in each country, State officials said 
that radiation detection assistance should be tailored to individual 
country needs. However, the Director of State's Office of Export 
Control Cooperation and Sanctions said that the department is 
reevaluating its approach, including installing better equipment where 
appropriate.
    The three agencies have also pursued different approaches to 
providing handheld radiation detection equipment. With funding from DOD 
and State, Customs has provided foreign customs organizations and 
border guards with radiation detection pagers. In contrast, DOE's 
Second Line of Defense program provides larger handheld detectors but 
not radiation detection pagers. State and Customs officials pointed out 
that pagers are a useful part of a radiation detection system at border 
crossings and essentially represent one tool in the toolbox to combat 
nuclear smuggling.
    Although the agencies coordinate their assistance through an 
interagency group chaired by State, we believe these efforts have been 
inadequate. No one agency is in charge of the overall U.S. effort to 
provide assistance and, consequently, the agencies have implemented 
their programs without always coordinating through the interagency 
group. The absence of a strong focal point for this assistance has led, 
not surprisingly, to differing views about the appropriate role that 
each agency should play in this effort. For example, while State sees 
itself as the agency that leads the coordination effort, a DOD official 
said that State does not have the necessary expertise to manage the 
overall U.S. effort. In contrast, DOE officials told us that State 
should have a lead role in coordination and diplomatic support. 
However, DOE officials questioned whether State and DOD are the 
appropriate agencies for installing portal monitors in countries other 
than Russia.
    There were also coordination problems within individual agencies. 
For example, although State provides its radiation detection assistance 
through DOE, the DOE office that works with State is completely 
separate from the Second Line of Defense program. A Second Line of 
Defense program official told us that his program office and the other 
office do not communicate with each other. This official believes that 
the two offices should be merged, and we recommended in our report that 
a consolidation occur, preferably under the Second Line of Defense 
program.
   u.s. assistance has helped countries combat nuclear smuggling but 
               problems with equipment undermine efforts
    U.S. assistance has, in general, strengthened the ability of 
numerous countries throughout the former Soviet Union and Central and 
Eastern Europe to deter and detect illicit trafficking in nuclear 
materials. However, serious problems with installing, using, accounting 
for, and maintaining radiation detection equipment have undermined U.S. 
efforts.
    Officials from 17 countries receiving U.S. assistance to combat 
nuclear smuggling told us that the assistance had provided much needed 
radiation detection equipment and training. According to officials from 
several countries, U.S.-supplied portal monitors installed at border 
crossings and handheld detection equipment represent the only 
assistance of this type that their countries have received. In 
countries that we visited during our fieldwork, including Russia, we 
observed that the equipment was working and was being used for the 
purposes intended. In fact, Russian customs officials told us that 
equipment funded by DOE had helped accelerate Russia's plans to improve 
border security. This is a daunting challenge, given the fact that 
Russia has almost 12,500 miles of borders with 14 countries, including 
North Korea, and is in close geographical proximity to Afghanistan, 
Iran, and Iraq.
    Despite the benefits of the assistance, we found numerous problems 
with various types of radiation detection equipment that has been 
provided by DOD, State, and Customs. According to officials from these 
agencies and a DOE office responsible for installing portal monitors in 
some countries, U.S. assistance to combat nuclear smuggling has lacked 
effective follow-up to ensure that equipment delivered was properly 
maintained and used for the purposes intended. Several officials told 
us that funding for maintenance of the equipment and training on how to 
use it has been inadequate. because of the U.S. practice of delivering 
the equipment without making provisions for follow-on support.
    Examples of the problems we found with U.S.-supplied equipment--
some of which we derived from discussions with U.S. program officials 
and representatives of countries receiving U.S. assistance--include the 
following:

        <bullet> About half of the pedestrian portal monitors provided 
        to one country in the former Soviet Union were never installed 
        or are not operational. Officials from this country told us 
        that they were given more equipment than they could use.
        <bullet> Portal monitors delivered to Lithuania were stored in 
        the U.S. embassy basement for about 2 years because the State 
        Department and the Lithuanian border organization disagreed 
        about whether an existing power supply was sufficient to 
        operate the equipment or a new one costing $12,600 was needed.
        <bullet> Equipment worth about $80,000 could not be given to 
        Estonia as part of a DOD/FBI training program because an 
        agreement governing the release of such equipment had not been 
        finalized. The equipment was placed in an embassy garage for 
        about 7 months before it was transferred to Estonia in December 
        2001.
        <bullet> A portal monitor furnished by the State Department to 
        Bulgaria was installed on an unused road. Plans are under way 
        to relocate the equipment.
        <bullet> Mobile vans equipped with radiation detection 
        equipment (which cost a total of $900,000) provided to two 
        countries have limited utility because they cannot be operated 
        effectively in cold climates and are very fuel-inefficient. 
        Officials from one country told us that the van provided to 
        them is stored in a shipping crate at customs' headquarters.

    Another problem is that in many cases, countries that have received 
U.S. radiation detection equipment are not systematically providing 
information about nuclear materials detected by U.S.-supplied 
equipment. As a result, it is difficult to determine the overall impact 
and effectiveness of the equipment.
    Actions are being taken to correct these problems. In the past 2 
years, the State Department has placed full-time advisers in many of 
the countries receiving U.S. assistance to improve program 
effectiveness. These advisers, generally retired Customs officials, are 
responsible for, among other things, inventorying equipment, 
determining how it is being used, including assessing its 
effectiveness. State is also using the advisers to improve equipment 
sustainability and facilitate routine equipment maintenance and repair.
    Other factors also affect U.S. efforts to combat nuclear smuggling, 
such as corruption in countries' border organizations and the amount of 
territory that requires protection. According to officials from several 
recipient countries, corruption is a pervasive problem within the ranks 
of border security organizations. In addition, because of the large 
expanses of territory, including borders that are not clearly marked, 
numerous recipient country officials told us that it is impossible to 
secure every border crossing. Furthermore, every country has ``green'' 
borders--territory that is not patrolled or regulated by border 
security personnel. These areas are very attractive to smugglers in 
general.
          efforts to combat nuclear smuggling at u.s. borders
    Since September 11, 2001, antiterrorism efforts, including 
detecting nuclear smuggling, have become a top U.S. Customs Service 
priority. While Customs is employing a three-pronged approach to this 
effort, which focuses on training, targeting, and technology, it has no 
overall strategic plan to guide its efforts. In the area of training, 
by the end of fiscal year 2002, Customs plans to train up to 140 
inspectors of its approximately 7,500 inspectors to detect nuclear 
material. This specialized training is being conducted in cooperation 
with DOE's national laboratories. In addition, according to Customs, 
approximately 5,000 Customs personnel have received training in 
familiarization and identification of materials and components 
associated with the development and deployment of nuclear weapons and 
radiological devices. Regarding targeting, Customs uses data from 
importers and exporters; an automated system that screens manifest 
information; and its Office of Border Security to target incoming and 
outgoing shipments for further inspection. However, Customs officials 
told us that one of its greatest needs is better information to more 
accurately target shipments.
    In the area of technology, Customs officials told us that it relies 
primarily on radiation detection pagers to detect nuclear material. 
Since fiscal year 1998, Customs has deployed about 4,200 pagers among 
its approximately 7,500 inspectors. Customs plans to make the radiation 
detection pagers standard equipment for every inspector and expects to 
purchase over 4,000 additional pagers to complete deployment by 
September 2003. Every inspector will have his or her own pager. 
However, radiation detection pagers have limitations. DOE officials 
told us that they do not view pagers as search instruments, but rather 
as personal safety devices that have a limited range and are not 
designed to detect weapons-usable material. Customs officials told us 
that the radiation detection pagers were initially purchased as 
personal protection devices. However, post September 11, 2001, the 
pagers will be used as radiation detection equipment. According to U.S. 
officials, pagers are more effectively used in conjunction with other 
radiation detection equipment, such as portal monitors. Customs has 
also deployed over 200 radiation detectors on mobile X-ray van and 
other X-ray equipment to screen small packages. Regarding portal 
monitors, Customs plans to install them at every U.S. land, air, and 
sea port of entry, but so far only one has been deployed as a 
demonstration project. According to Customs officials, the plan is to 
purchase about 400 portal monitors. About half of the monitors will be 
purchased in this fiscal year and the remainder will be purchased in 
fiscal year 2003. These purchases are a step in the right direction and 
are designed to get radiation detection equipment to U.S. borders 
quickly. However, Customs does not have a comprehensive strategic plan 
to guide its overall efforts. Such a plan, at a minimum, would assess 
vulnerabilities and risks; identify the complement of radiation 
detection equipment that should be used at each type of border entry 
point--air, rail, land, and sea--and whether the equipment could be 
immediately deployed; identify longer-term radiation detection 
equipment needs; and develop measures to ensure that the equipment is 
adequately maintained. However, it is not enough to simply deploy 
equipment. Customs personnel must be effectively trained in radiation 
science, the use of the equipment, and identifying and responding to 
alarms. The strategic plan would need to identify total costs, annual 
budgetary needs, and timeframes for all these activities. The plan 
would provide for an integrated, systematic approach to Customs 
antiterrorism efforts and provide the basis for setting priorities and 
for coordinating efforts with other federal, state, and local agencies 
that would be involved in these activities. While Customs officials 
told us that they developed the elements of a plan, including schedules 
to purchase equipment and train personnel, these elements have not yet 
been integrated into a comprehensive strategic plan. Although we are 
not making a formal recommendation to Customs to develop such a plan, 
we will monitor Customs' progress toward the development of its 
strategic plan.
    Madam Chairman this completes my prepared statement. I would be 
happy to respond to any questions you or other members of the 
subcommittee may have at this time.
                    gao contact and acknowledgments
    For further information about this testimony, please contact Gary 
Jones at (202) 512-3841. Gene Aloise, Joseph Cook, and Glen Levis also 
made key contributions to this testimony.

    Senator Landrieu. Thank you, Ms. Jones.
    Mr. Caravelli.

STATEMENT OF JOHN M. CARAVELLI, ASSISTANT DEPUTY ADMINISTRATOR 
    FOR INTERNATIONAL MATERIALS PROTECTION AND COOPERATION, 
 NATIONAL NUCLEAR SECURITY ADMINISTRATION, U.S. DEPARTMENT OF 
                             ENERGY

    Mr. Caravelli. Thank you, Chairman Landrieu and members of 
the subcommittee. I also thank you for the opportunity to 
discuss the Department of Energy's and the National Nuclear 
Security Administration's Second Line of Defense (SLD) program 
and its role in preventing nuclear smuggling.
    Since the breakup of the Soviet Union and the resulting 
fragmentation of its security structures, this department has 
been in the forefront of the fight against those who would 
attempt to steal or divert nuclear weapons or materials. Today 
and housed under one roof in the Office of International 
Material Protection and Cooperation, that I direct, we are able 
to take a layered approach to the nuclear smuggling problem. 
Our material protection, control, and accounting program works 
at Russian nuclear sites and in so doing forms, as you 
mentioned, Senator, a first line of defense.
    I am pleased to report that, because of increased program 
funds, a new access agreement and Secretary Abraham's 
leadership, we estimate that we will be able to shorten the 
time line for completion of physical security upgrades at 
Ministry of Atomic Energy sites, from our previous plan of 2008 
to approximately 2006. In so doing, we will protect some 600 
metric tons of highly enriched uranium and plutonium, which is 
enough material to make over 40,000 nuclear devices.
    Let me turn to the Second Line of Defense (SLD). 
Recognizing the complementary mission objectives of the 
Material Protection, Control and Accounting Program (MPC&A) and 
the SLD, last fall NNSA management merged SLD with the MPC&A 
program, as recommended by the administration review of 
nonproliferation assistance to Russia. This change has already 
resulted in enhanced communication and cooperation between the 
programs.
    Because of the size of our MPC&A program, perhaps it is 
more easily recognized. But the SLD program has its own 
accomplishments. We will have installed by the end of this 
fiscal year over 230 portal monitors at over 20 Russian sites, 
including airports, seaports, and border crossings. However, it 
is important to note that SLD is not just a Russian-centered 
program. Although this year we have conducted surveys of 
another 36 Russian sites, which is a prelude to deployment of 
portal monitors, we have also surveyed 33 sites in Kazakhstan 
and one in Ukraine as part of the program's expansion. We 
believe about half of those surveyed sites can be completed in 
fiscal year 2003 with proper support and funding.
    We also prioritized the selection of sites with great care, 
consulting regularly with experts at the State Department and 
our colleagues in the Intelligence Community. All of our gear 
has nuclear and radioactive material detection capabilities and 
is optimized to detect smuggled material. Most important of 
all, these sites work. The Russian Customs Service, who is our 
primary partner for our work in Russia, provides information on 
the operation of the portal monitors and enables us to confirm 
their use. Each monitor we deploy has an occupancy sensor and 
video log that also confirms its use.
    Information from our Russian colleagues and data logs show 
that over 400,000 vehicles, 22,000 railcars, and over 2 million 
pedestrians have been monitored since 1999. As a result of this 
monitoring, we believe it unlikely that significant amounts of 
nuclear material have been smuggled successfully through the 
sites where we have deployed our equipment. This is direct 
threat reduction work at a very modest investment.
    The GAO in its very thorough report raised a series of 
issues related to the department's internal organization of its 
border monitoring work, and I am pleased to inform you that, 
based on the GAO recommendations and our own internal 
management review, that a small program in another part of the 
department doing border monitoring work is in the process of 
being merged into the SLD program.
    Madam Chairman, the successful threat or diversion of even 
small amounts of nuclear or radioactive materials would have 
profound implications for our Nation. We know that those who 
wish us ill are only limited by their opportunities, resources, 
and expertise. The SLD takes away those resources and 
opportunities.
    Thank you for this time and I look forward to your 
questions.
    [The prepared statement of Mr. Caravelli follows:]
                  Prepared Statement by Jack Caravelli
    Chairman Landrieu, members of the subcommittee, thank you for this 
opportunity to discuss the Department of Energy/National Nuclear 
Security Administration (DOE/NNSA) Second Line of Defense (SLD) Program 
and its role in preventing nuclear smuggling.
    Since the breakup of the Soviet Union and the resulting 
fragmentation of its security structures, this department has been in 
the forefront of the fight against those who would attempt to steal or 
divert nuclear weapons or materials. Today--and housed under one roof 
in the Office of International Material Protection and Cooperation (NA-
25) that I direct--we are able to take a layered approach to the 
nuclear smuggling problem. Our Material Protection Control and 
Accounting (MPC&A) program works at Russian nuclear sites and in so 
doing forms a first line of defense. I am pleased to report that 
because of increased program funds, a new access agreement and 
Secretary Abraham's leadership, we estimate that we will be able to 
shorten the timeline for the completion of physical security upgrades 
at Ministry of Atomic Energy sites from 2008 to 2006. We will protect 
some 600 metric tons of highly enriched uranium and plutonium, enough 
material to make over 40,000 nuclear devices.
    Let me turn to Second Line of Defense (SLD). Recognizing the 
complementary mission objectives of MPC&A and SLD, last fall NNSA 
management merged SLD with MPC&A, as recommended by the administration 
review of nonproliferation assistance to Russia. This change has 
resulted in enhanced communication and cooperation between the 
programs.
    While our MPC&A work is perhaps more easily recognized because of 
its size, the SLD Program has its own accomplishments. We will have 
installed by the end of this fiscal year over 230 portal monitors at 
over 20 Russian sites, including ports, seaports and border crossings. 
This year we have conducted surveys of another 36 Russian sites, 31 
sites in Kazakhstan and 1 in Ukraine. We believe about half of those 
surveyed sites can be completed in fiscal year 2003 with proper support 
and funding. We prioritize the selection of sites with great care, 
consulting regularly with experts at the State Department and in the 
IC. All of our gear has nuclear and radioactive material detection 
capabilities and is optimized to detect smuggled material. Most 
important of all, these sites work.
    The Russian Customs Service provides us information on the 
operation of the portal monitors and allows us to confirm their use. 
Each monitor has an occupancy sensor and video log that confirms its 
use. Information from our Russian colleagues and data logs show that 
over 400,000 vehicles, 22,000 rail cars and 2,050,000 pedestrians have 
been monitored since 1999. As a result of this monitoring, we believe 
it highly unlikely that significant amounts of nuclear material have 
been smuggled successfully through the sites that have deployed our 
equipment. This is direct threat reduction work, achieved as I 
mentioned, with a very modest investment.
    The GAO in its thorough report raised a series of issues related to 
the Department's internal organization of its border monitoring work. I 
am pleased to inform you that based on the GAO recommendations and our 
own internal management review that a small program in another part of 
the Department doing border monitoring work is in the process of being 
merged into the SLD program.
    Madam Chairman, the successful theft or diversion of even small 
amounts of nuclear or radioactive materials would have profound 
implications for our nation. We know that those who wish us ill are 
only limited by their opportunities, resources and expertise. SLD takes 
away those resources and opportunities.
    Thank you and I look forward to your questions.

    Senator Landrieu. Thank you very much.
    Ms. Bronson.

 STATEMENT OF LISA BRONSON, DEPUTY UNDER SECRETARY OF DEFENSE 
 FOR TECHNOLOGY SECURITY POLICY AND COUNTER-PROLIFERATION AND 
      DIRECTOR, DEFENSE TECHNOLOGY SECURITY ADMINISTRATION

    Ms. Bronson. Thank you, Madam Chairman, for the opportunity 
to present the views of the Department of Defense before this 
subcommittee. Based on your opening statement and the desire of 
this subcommittee to focus on the future, I propose to skip 
over the historical background and accomplishments that are 
contained in my written statement and ask that they be made 
part of the record and let me simply focus on the future.
    The President's fiscal year 2003 budget requests $40 
million for the weapons of mass destruction (WMD) proliferation 
prevention initiative, which is designed to enhance non-Russian 
FSU capabilities to prevent, deter, detect, and interdict 
illicit trafficking in WMD and related materials and to respond 
effectively to trafficking incidents at the border.
    The Department appreciates this subcommittee's support for 
that initiative. We are working with our interagency 
counterparts to finalize an overall United States Government 
(USG) strategic plan for the future of WMD border security 
assistance, to ensure that DOD's efforts are fully coordinated 
with those of other agencies. We have begun development of 
prototype projects that DOD expects to begin implementing in 
fiscal year 2003.
    Our planning is in its early stages, but I would like to 
review with you some of the initial thoughts that we have 
shared with our interagency colleagues. We have proposed that 
the USG strategic plan be guided by a vision of countries with 
fully operational, self-sustaining multi-agency capabilities to 
prevent, detect, interdict WMD and related materials.
    A strategic plan that seeks to achieve this vision should 
orchestrate USG activities so as to capitalize on the strengths 
and comparative advantages of different agencies and ensure 
that their activities are complementary and not duplicative. 
Implementation of such a strategic plan will serve U.S. 
security interests by helping to prevent WMD proliferation to 
terrorists and states of concern, facilitating future U.S. 
activities in the former Soviet Union (FSU), promoting 
interoperability with NATO and the Partnership for Peace, 
contributing to regional stability and cooperation, and 
developing relationships with foreign counterpart agencies that 
will be useful in times of crisis.
    Our preliminary view is that the USG approach to assistance 
should entail developing comprehensive projects based on 
country/regional requirements that are designed to provide the 
recipient countries with complete operational capabilities. 
These projects would provide not only equipment and related 
training, but also assistance in developing organic, self-
sustaining operations and maintenance capabilities. Moreover, 
where it makes sense, the Department of Defense should seek to 
leverage ongoing USG assistance activities by providing 
complementary assistance.
    A fundamental tenet of this approach is the requirement to 
coordinate the assistance efforts of the Department of Defense, 
the Department of State, Department of Energy, Customs, and 
other agencies in order to maximize the return on the USG 
assistance dollars. We should orient the USG assistance toward 
creating a self-sustaining culture of border security and the 
means to achieve it in the recipient countries.
    The capabilities that USG assistance could help develop 
could include: the capacity to secure ports of entry; green 
borders, dark blue borders, light blue borders; internal 
security; legal and regulatory systems; the ability to 
investigate and prosecute; interagency and international 
communication; and infrastructure to train personnel.
    We have begun initial development of several prototype 
projects designed to help create some of these capabilities. 
For example, we are considering a project that would improve 
Kazakhstan's infrastructure to control its major border 
crossing and green land borders with Turkmenistan. The U.S. 
Ambassador to Kazakhstan requested Department of Defense/
Cooperative Threat Reduction (DOD/CTR) assistance in addressing 
Kazakhstan's border security needs and the Government of 
Kazakhstan has expressed interest in the U.S. assisting in 
controlling this vulnerable border region.
    DOD has operational experience in employing ground-based 
sensors and has provided sensors and sensor training in the 
past through its counterproliferation programs. We anticipate 
using a prototype approach that would include upgrading the 
infrastructure at the main border crossing, deploying an 
initial ground sensor suite, and conducting operational tests 
before expanding the sensor development across the entire 
border with Turkmenistan.
    This project would include assisting Kazakhstan in 
developing a comprehensive capability to operate, maintain, and 
sustain the sensor network.
    There are other examples which appear in my prepared 
testimony and I ask that you review them for the purposes of 
the record.
    In pursuing these new efforts, interagency coordination is 
essential. The DOD WMD proliferation prevention initiative is 
intended to augment and complement the programs managed by the 
Departments of State, Energy, and the U.S. Customs Service. We 
are working with our interagency counterparts to finalize an 
overall USG strategic plan to guide the overall direction of 
future WMD border security assistance.
    The Department of Defense concurs with the recent GAO 
recommendation that a Government-wide plan is needed to ensure 
that the U.S. Government has an integrated approach. We should 
not limit this plan to nuclear smuggling assistance. We should 
cover all aspects of WMD smuggling. We agree in particular that 
such a plan should include a unified set of program goals and a 
plan for achievement of self-sufficiency for each country 
receiving assistance, to include a plan for transferring 
responsibility for equipment maintenance to the host country.
    We fully support increased cooperation between agencies 
involved in providing assistance to other countries, 
clarifications of roles of different agencies, and the 
rationalization of the assistance provided. However, we would 
caution against a single agency, ``one size fits all'' approach 
that would discourage individual agency initiative and dilute 
the comparative advantage that each department has to offer.
    For example, the Department of Defense has provided its 
unique expertise in the areas of field reconnaissance command, 
control, communications, and intelligence (C\3\I), placement 
and use of ground sensors, nuclear/biological/chemical (NBC) 
defense, and small unit tactics that may assist border guards 
in securing the green borders between official ports of entry. 
This training has been accomplished in a way to support 
coordination between agencies of the recipient country and to 
reinforce civilian control of the military. We believe that 
this training, which is unique to the Department of Defense, 
complements that provided by other departments and agencies.
    In conclusion, DOD's role in providing export control and 
border security assistance has evolved over the past 9 years 
from initial CTR efforts to the ongoing DOD 
counterproliferation programs and support for the State 
Department's Export Control and Related Border Security (EXBS) 
program to the broader WMD proliferation prevention initiative 
which I have just discussed. Development of this initiative 
underscores our continued commitment to assist other countries 
to prevent the proliferation of WMD and related materials.
    DOD is uniquely qualified to undertake this initiative to 
dovetail with ongoing USG foreign assistance activities in this 
area. We are committed to the formulation of an overarching 
strategic plan as a means to ensure that USG assistance is 
mutually reinforcing and cost effective.
    This subcommittee has provided very strong support over the 
years for DOD's threat reduction activities. We appreciate that 
support and look forward to our continued collaboration on 
future counterproliferation and threat reduction efforts.
    Thank you.
    [The prepared statement of Ms. Bronson follows:]
                   Prepared Statement by Lisa Bronson
    Thank you for inviting me to discuss the Department of Defense 
(DOD) perspective on export control and border security assistance to 
combat the smuggling of materials that could contribute to the 
acquisition of a nuclear, biological, chemical or radiological weapons 
capability.
    DOD's role in this area has evolved over the past 9 years. This 
evolution has included four distinct DOD efforts. One effort was 
completed in the late 1990s, two are ongoing and one is in its initial 
stage. In the early 1990s, in response to the urgent need for export 
control and border security assistance to nuclear successor states in 
the Former Soviet Union (i.e., Russia, Kazakhstan, Ukraine and 
Belarus), the Department provided the initial wave of United States 
Government (USG) assistance under the Cooperative Threat Reduction 
(CTR) program. Responsibility for this initial program passed to the 
Department of State in 1996. In the mid-1990s, DOD in coordination with 
the FBI and U.S. Customs Service (USCS) established two 
counterproliferation programs to provide training and technical 
assistance to law enforcement, customs, and border guard personnel. In 
2000, DOD began a third effort of providing limited technical support 
to the State Department's new Export Control and Related Border 
Security (EXBS) program. More recently, DOD has considered how it might 
enhance the assistance it provides in this area by capitalizing on its 
institutional strengths, its extensive experience in military-to-
military contact and Partnership for Peace activities, and its 
capability to implement multi-million dollar CTR projects in the Former 
Soviet Union (FSU). As a result, we decided to seek congressional 
support to establish the WMD Proliferation Prevention Initiative under 
the CTR program.
                          initial dod efforts
    DOD began providing export control and border security assistance 
to the Former Soviet Union (FSU) through the Cooperative Threat 
Reduction program in 1993 to respond to the growing WMD proliferation 
threat. DOD has; provided portal monitors, hand-held radiation 
detectors, x-ray machines, computer networks, communications equipment, 
interdiction equipment and training for border guards and customs 
agents, and assisted in developing export control laws' institutions 
and infrastructure. In 1996, DOD passed primary funding responsibility 
for export control and border security assistance to the Department of 
State, but DOD continued to manage the ongoing projects through their 
completion.
                     counterproliferation programs
    At Congress's direction in the mid-1990s, DOD established two 
counterproliferation initiatives to provide training and technical 
assistance to law enforcement, customs and border guard personnel. The 
DOD/FBI Counterproliferation program trains and equips law enforcement 
agencies in preventing, deterring and investigating incidents involving 
WMD and cross-border trafficking in WMD. The DOD/USCS 
Counterproliferation program provides training and equipment to enhance 
FSU border enforcement capabilities to interdict and investigate WMD 
smuggling efforts. These programs have provided over $10 million in 
training and equipment to 26 partner counties in the FSU, Central/East 
Europe and the Baltics.
                     support to interagency efforts
    DOD has provided support for the State Department's EXBS program 
since its inception. DOD personnel have participated in initial 
interagency assessments of country requirements, helped determine 
assistance priorities, and identifed initial equipment and training to 
address those requirements. In some cases, DOD personnel have provided 
initial training on EXBS procured equipment to recipient counties. DOD 
also used its military-to-military contacts, particularly in Central 
Asia, to support EXBS efforts to strengthen FSU border security 
capabilities. These have included exchanges with military and border 
guard units involved in securing borders and training in specialty 
skills for instructors from border control agencies. In addition, the 
State Department has turned to DOD experts to perform a variety of 
assessments of key elements of border control capabilities that have 
become the basis for subsequent EXBS assistance. These include 
communications requirements in Kyrgyzstan, aviation support in 
Uzbekistan and Kyrgyzstan, and the control of the Amu Darya river 
border with Afghanistan by Uzbekistan.
                            accomplishments
    DOD assistance has enhanced the ability of many counties in the 
FSU, Central-East Europe and the Baltics to prevent the proliferation 
of WMD across their borders. Through the CTR program, DOD has provided 
cargo and baggage x-ray machines, pedestrian portal monitors, and hand-
held radiation detectors to Belarus; customs laboratory equipment, x-
ray machines, radiation detection equipment and licensing automaton 
equipment to Ukraine; customs laboratory equipment, patrol boats, and 
vehicles to Kazakhstan; and export control training and information 
exchanges to Russia.
    Through seminars at the International Law Enforcement Academy 
(ILEA) in Budapest, Hungary, sponsored by the DOD/FBI 
Counterproliferation Program, host-nation parliamentarians, members of 
the presidential office, judges, and law enforcement personnel have 
been familiarized with the WMD proliferation threat and examples of 
successful legislative and law enforcement techniques to help counter 
the threat to date, over 380 high- and mid-level officials have 
benefited from these seminars.
    The DOD/USCS Counterproliferation Program has provided courses for 
approximately 190 host-nation personnel on the detection and 
interdiction of WMD and WMD-related materials. These courses are 
designed to aid customs inspectors and border guards in spotting WMD or 
related materials at border crossing points. To further assist 
detection and interdiction efforts, this program has delivered 
equipment and trained over 380 customs and border guards personnel in 
its use in Georgia, Kazakhstan, Moldova, Uzbekistan, Romania, 
Azerbaijan, and Slovenia. Additionally, WMD Customs advisors were 
provided for 5-month periods to Bulgaria, Romania, and the 
International Atomic Energy Agency.
    DOD CTR and Counterproliferation assistance has contributed to a 
number of seizures and export denials. Some examples include;

        <bullet> In the summer of 2001, Uzbek border security officials 
        detected radioactive materials attempting transit at a northern 
        border checkpoint and at a western border checkpoint. In both 
        cases, the detection resulted from the use of portal monitors 
        provided under the DOD/USCS program.
        <bullet> On April 6, 2001, Kazakh border guards seized two 
        containers with lead coating emitting considerable radiation. 
        The containers were found at the Dostyk checkpoint in a train 
        bound for China. Investigation of the suspicious containers 
        detected radiation of 240 microroentgen per hour. The DOD/USCS 
        Counterproliferation Program had provided a large shipment of 
        border enforcement equipment, as well as associated training, 
        to this checkpoint in July 1998.
        <bullet> On April 1, 2000, Uzbek customs officials stopped an 
        Iranian-licensed truck at the Kazakh-Uzbek border about 20 
        kilometers from Tashkent. Hidden within the cargo of waste 
        products were 10 highly radioactive lead containers. The 
        customs officials were alerted to the presence of radioactive 
        material when radiation detection pagers provided by the DOD/
        USCS Counterproliferation Program went off. The driver, an 
        Iranian citizen, said that the waste products were on their way 
        from Kazakhstan through Uzbekistan, Turkmenistan, Iran, to 
        Quetta, Pakistan. Iran may have been the true destination.
        <bullet> Bulgarian customs officials seized several grams of 
        weapons useable, highly enriched uranium-235 (U-235) at the 
        Rousse border crossing point with Romania on May 29, 1999. 
        Rousse was the site of Operation ROMBUL, held in June 1998. 
        This was a combined Bulgarian-Romanian customs exercise, 
        organized and facilitated by U.S. Customs WMD Advisors, 
        sponsored by the DOD/USCS Counteproliferation Program. Two of 
        the Bulgarian Customs officials who made the actual seizure had 
        received training from USCS officers during the train-up phase 
        immediately prior to Operation ROMBUL. The customs port 
        director at Rousse had attended DOD/U.S. Customs Service-
        sponsored training, as had the director of the Bulgarian 
        central customs chemical laboratory who managed the analysis of 
        the material.

    In September 2001, the 10-nation Southeast European Defense 
Ministerial (SEDM) Seminar on Defense Assistance to 
Counterproliferation and Border Security agreed to a major cooperative 
international initiative creating opportunities for expansion of the 
DOD/FBI Counterproliferation program to the Balkans/southeast European 
region. This is a significant breakthrough since this region is a 
transit zone for WMD-related materials and terrorists. We plan to 
conduct assessments for Bosnia, FYROM/Macedonia, Croatia, and Albania 
to determine the appropriate counterproliferation assistance.
                      responding to new challenges
    Even before September 11, DOD was considering how it might increase 
its contribution to the USG effort to combat the smuggling of materials 
that could contribute to nuclear, biological, and chemical weapons 
programs. Recent events underscore the critical role DOD 
counterproliferation efforts could play in support of the war on 
terrorism. The President's fiscal year 2003 budget requests $40 million 
for the WMD Proliferation Prevention Initiative which is designed to 
enhance non-Russian FSU military, internal security forces, border 
guards and customs agents capabilities to prevent, deter, detect and 
interdict illicit trafficking in WMD and related materials, and to 
respond effectively to trafficking incidents at the border. The 
Department appreciates this subcommittee's support for this initiative. 
We are working with our interagency counterparts to finalize an overall 
USG strategic plan for the future of WMD border security assistance to 
ensure that DOD's efforts are fully coordinated with those of other 
agencies. We have begun development of prototype projects that DOD 
expects to begin implementing in fiscal year 2003.
    Our planning is in its early stages, but I would like to review 
with you some initial thoughts that we have shared with our interagency 
colleagues. We have proposed that the USG strategic plan be guided by a 
vision of countries with fully operational, self-sustaining, 
multiagency capabilities to prevent, detect, and interdict MD and 
related materials. A strategic plan that seeks to achieve this vision 
should orchestrate USG assistance activities so as to capitalize on the 
strengths and comparative advantages of different agencies and ensure 
activities are complementary and not duplicative. Implementation of 
such a strategic plan will serve U.S. security interests by:

        <bullet> Helping prevent WMD proliferation to terrorists and 
        states of concern;
        <bullet> Facilitating future U.S. activities in the FSU and 
        reinforcing relationships with FSU states;
        <bullet> Promoting interoperability with NATO and the 
        Partnership for Peace;
        <bullet> Contributing to regional stability and cooperation; 
        and
        <bullet> Developing relationships with foreign counterpart 
        agencies that will be useful in time of crisis.

    Our preliminary view is that the USG approach to assistance should 
entail developing comprehensive projects based on country/regional 
requirements that are designed to provide the recipient countries 
complete operational capabilities. These projects would provide not 
only equipment and related training, but also assistance in developing 
organic, self-sustaining operations and maintenance capabilities. 
Moreover, where it makes sense, DOD should seek to leverage ongoing USG 
assistance activities by providing complementary assistance. A 
fundamental tenet of this approach is the requirement to coordinate the 
assistance efforts of DOD, State, Energy, Customs, etc., in order to 
maximize the return on USG assistance dollars.
    We should orient USG assistance toward creating a self-sustaining 
culture of border security in the recipient countries and the means to 
achieve it. The capabilities that USG assistance could help develop 
include:

        <bullet> Capacity to secure ports of entry, green borders 
        (land), dark blue borders (sea), light blue borders (air);
        <bullet> Internal security;
        <bullet> Legal and regulatory systems;
        <bullet> Ability to investigate and prosecute;
        <bullet> Interagency and international communication; and
        <bullet> Infrastructure to train personnel.

    We have begun initial development of several prototype projects 
designed to help create some of these capabilities. For example, we are 
considering a project that would improve Kazakhstan's infrastructure to 
control its major border crossing and green (land) borders with 
Turkmenistan. The U.S. ambassador to Kazakhstan requested DOD CTR 
assistance in addressing Kazakhstan's border security needs, and the 
Government of Kazakhstan has expressed interest in the U.S. assisting 
it in controlling this vulnerable border region. DOD has operational 
experience in employing ground-based sensors and has provided sensors 
and sensor training in the past through its counterproliferation 
programs. We anticipate using a prototype approach that would include 
upgrading the infrastructure at the main border crossing, deploying an 
initial ground sensor suite, and conducting operational tests' before 
expanding sensor deployment across the entire border with Turkmenistan. 
The project would include assisting Kazakhstan in developing a 
comprehensive capability to operate, maintain and sustain the sensor 
network.
    We also are considering a project to support Ukraine's plans to 
develop mobile response teams (MRTs) to control large green (land) 
borders in sensitive areas. The Government of Ukraine has requested 
that the U.S. provide assistance in establishing and equipping teams 
for this mission. DOD has extensive experience in comparable 
operations--surveillance, detection, and interdiction--that it can 
bring to bear in an assistance project of this type.
    We are contemplating a project to provide Azerbaijan a maritime 
surveillance radar to detect and direct interdiction of illicit 
trafficking in the Caspian Sea off of its southern coast. DOD has 
considerable experience in this area and can draw on past experience in 
executing major projects in the FSU. We envision that we would work 
with the Government of Azerbaijan to assess its requirements, develop a 
proposal to provide the necessary capabilities and then implement that 
proposal. Such a project could include providing Azerbaijan a 
sustainable capability to operate and maintain the radar and related 
command and control systems to direct maritime interception operations.
    We also have received a request from the Uzbek ambassador to deploy 
additional portal monitors in Uzbekistan to detect illicit trafficking 
in nuclear materials at key border crossings. We will work closely with 
other USG agencies to determine how best to address this request.
    In pursuing these new efforts, interagency coordination is 
essential. The DOD WMD Proliferation Prevention Initiative is intended 
to augment and complement programs managed by the Departments of State, 
Energy and the U.S. Customs Service. We are working with our 
interagency counterparts to finalize an overall U.S. Government 
strategic plan to guide the overall direction of future WMD border 
security assistance.
                 general accounting office (gao) report
    The Department of Defense concurs with the recent GAO 
recommendation that a Government-wide plan is needed to ensure that the 
USG has an integrated approach. We would not limit this plan to nuclear 
smuggling assistance. It should cover all aspects of WMD smuggling. We 
agree in particular that such a plan should include a unified set of 
program goals and a plan for achievement of self sufficiency for each 
country receiving assistance--to include a plan for transferring 
responsibility for equipment maintenance to the host country. We fully 
support increased cooperation between agencies involved in providing 
assistance to other countries, clarification of the roles of different 
agencies, and rationalization of the assistance provided.
    However, we would caution against a single-agency ``one size fits 
all'' approach that would discourage individual agency initiative and 
dilute the comparative advantage that each department has to offer. For 
example, the Department of Defense has provided its unique expertise in 
the areas of field reconnaissance, C\3\I, placement and use of ground 
sensors, NBC defense, and small unit tactics that may assist border 
guards in securing the green borders between official ports of entry. 
This training has been accomplished in a way to support coordination 
between agencies of the recipient country and to reinforce civilian 
control of the military. We believe that this training, which is unique 
to DOD, complements that provided by other departments and agencies.
                               conclusion
    DOD's role in providing export control and border security 
assistance has evolved over the past 9 years from initial CTR efforts 
to ongoing DOD Counterproliferation Programs and support for the State 
Department's EXBS program, to the broader WMD Proliferation Prevention 
Initiative, Development of this recent initiative underscores our 
continued commitment to assist other countries prevent the 
proliferation of WMD and related materials. DOD is uniquely qualified 
to undertake this initiative to augment ongoing USG assistance 
activities in this area. We are committed to the formulation of an 
overarching strategic plan as a means to ensure that USG assistance is 
mutually reinforcing and cost effective.
    This subcommittee has provided very strong support over the years 
for DOD's threat reduction activities. We appreciate that support, and 
look forward to our continued collaboration on future 
counterproliferation and threat reduction efforts.

    Senator Bingaman [presiding]. Thank you very much.
    Ambassador Wulf, why don't you go ahead.

STATEMENT OF AMBASSADOR NORMAN A. WULF, SPECIAL REPRESENTATIVE 
   TO THE PRESIDENT FOR NONPROLIFERATION, DEPARTMENT OF STATE

    Ambassador Wulf. Thank you, Senator.
    Senator Bingaman. Chairman Landrieu had to go vote. She 
will be right back. So please go ahead.
    Ambassador Wulf. Thank you for inviting a representative of 
the State Department to appear before this subcommittee today 
on this important topic of U.S. efforts to help other countries 
combat nuclear smuggling. With the subcommittee's permission, I 
would like to make a brief oral summary and submit my written 
statement for the record.
    Senator Bingaman. We will include your statement.
    Ambassador Wulf. Let me start by noting that the United 
States is not the only state threatened by nuclear 
proliferation and nuclear terrorism. All members of the 
international community face this threat as well, and the 
United States is not alone in its response to this threat. At 
the recently concluded Group of Eight Summit in Canada, $20 
billion was pledged over a period of 10 years by the 6 pledging 
states to prevent access to weapons and materials of weapons of 
mass destruction by terrorists and those who harbor them.
    Our friends and allies are also working bilaterally and 
through other mechanisms, such as the European Union, to 
provide assistance to the states of the former Soviet Union. In 
the multilateral realm, the International Atomic Energy Agency 
is enhancing its efforts to assist member states to control and 
protect nuclear and other radioactive materials and nuclear 
facilities.
    As has already been noted, the best way to prevent nuclear 
smuggling is to prevent smugglers from obtaining nuclear 
materials. However, because there can be no guarantee that 
these efforts will be 100 percent effective, prudence dictates 
that we must also seek to preclude those who may obtain such 
materials from taking those materials across borders. This has 
often been referred to as a Second Line of Defense.
    Turning to the General Accounting Office's report, let me 
state that, while the State Department generally agrees with 
the overall report, we do not agree that coordination among the 
agencies is as bad as the report suggests, but we also agree it 
is not as good as it ought to be. The report has noted that 
significant improvements have already been made in the 
management and coordination of these assistance programs and 
has made recommendations for further improvements. Let me touch 
briefly on two of those recommendations.
    One recommendation suggested that the State Department 
chair an interagency group, and indeed we are now doing so, 
that would coordinate export control assistance with respect to 
nuclear detection. This committee, the Nuclear Detection Inter-
Agency Working Group, meets monthly. Its purview includes 
coordinating the deployment of radiation detection equipment 
and it strives to avoid duplication, it seeks to promote 
synergies and seeks to benefit from each other's experience.
    This committee has agreed to develop an integrated 
interagency approach to detection and interdiction of special 
nuclear materials or radiological materials overseas. It has 
also adopted the elements recommended in the GAO report as the 
outline for developing that approach. It has identified 
participating agency roles and responsibilities for nuclear 
detection. In addition, the Department of Energy has agreed to 
undertake a draft global nuclear smuggling threat assessment as 
part of this effort, with input from the Intelligence 
Community.
    As part of its compliance report due to the GAO on August 
15, the committee, this interagency committee, hopes to include 
a draft strategic plan.
    I would also like to comment briefly on the progress made 
on the second issue raised by the GAO report, that is, with 
respect to problems with equipment which undermine U.S. 
assistance efforts. Recently the Department of Energy agreed to 
take on the repair and replacement of a large array of 
detection equipment overseas on a global basis. With the 
transfer of this vital maintenance and upgrade program to DOE, 
repairs will be made more swiftly than in the past and obsolete 
or marginal overseas equipment will be systematically upgraded 
to the highest state of the art technology appropriate for the 
particular country.
    In conclusion, the border assistance programs of the 
various agencies are designed to deter or to intercept passage 
of nuclear materials or radiological materials across borders. 
The implementation of these programs by the various Federal 
agencies is improving. The GAO report and the interest of this 
subcommittee have contributed to those improvements. The result 
will be a strengthened Second Line of Defense program and 
enhanced global efforts to protect against proliferation and 
nuclear terrorism.
    Thank you, Senator.
    [The prepared statement of Ambassador Wulf follows:]
            Prepared Statement by Ambassador Norman A. Wulf
    Thank you for inviting a representative of the Department of State 
to appear before this subcommittee today on U.S. efforts to help other 
countries combat nuclear smuggling. I welcome the opportunity to detail 
more fully the contribution that the Department of State will continue 
to make to the global effort to prevent, detect, and respond to nuclear 
smuggling.
    Preventing the smuggling of nuclear materials or highly radioactive 
sources became a high priority with the breakup of the Soviet Union. 
The collapse of the police state and economic dislocation gave 
opportunity and motive to those bold or desperate enough to profit from 
nuclear smuggling. The tragic events of September 11, made even clearer 
the importance of our task. Rogue states seeking nuclear material for 
covert weapons programs are only part of the problem. We also must 
guard against terrorist acquisition of nuclear materials or highly 
radioactive sources.
    Unquestionably, the best way to prevent smuggling of nuclear or 
radioactive materials is to ensure that such materials remain under the 
control of competent authorities. The bulk of U.S. programs focus on 
efforts to account for as much of this material as possible and to 
ensure that such material does not fall into unauthorized hands. This 
activity is often referred to as the first line of defense. However, 
there can be no guarantee that these efforts will be 100 percent 
effective. Prudence requires seeking to preclude passage of any such 
materials from one country to the next at borders. This is often 
referred to as the Second Line of Defense.
    First and Second Line of Defense programs and our efforts to 
strengthen the multilateral nonproliferation regime combine to enhance 
U.S. and international security against proliferation and nuclear 
terrorism.
    The United States is not the only state threatened by nuclear 
proliferation and nuclear terrorism. All members of the international 
community face this threat as well. The United States is not alone in 
its response to this threat. The G-8's $20 billion initiative to 
prevent access to weapons and materials of mass destruction by 
terrorists and those who harbor them illustrates the breadth of 
international commitment to this problem. Our friends and allies are 
also working bilaterally and through other mechanisms such as the 
European Union to provide assistance. In the multilateral realm, the 
International Atomic Energy Agency is enhancing its efforts to assist 
member states to control and protect nuclear and other radioactive 
materials and nuclear facilities.
    Border assistance programs, those detailed in the GAO report, 
provide assisted states with the equipment and training to detect, 
interdict, and respond to nuclear smuggling. These programs also assist 
states in strengthening their legal and regulatory control over the 
export of nuclear-related equipment and technology. The more than $86 
million spent by State, Energy, Defense, Customs, the FBI, and Coast 
Guard over the past decade have produced significant results. State, as 
the report makes clear, plays a central role in these programs.
                             the gao report
    Even though we do not agree with every detail of the report, we 
believe it presents a useful assessment of this issue and especially of 
areas where we agree improvement is needed. Specifically, the State 
Department does not agree that coordination among the agencies or even 
within agencies is as bad as the report suggests, but we agree that it 
is not as good as it ought to be. The report noted significant 
improvements that have been made in the management and coordination of 
our assistance programs. However, other improvements have been made 
that are not fully reflected in the report. I am prepared to address 
criticisms raised by the report if the subcommittee so desires. 
However, I propose first to address two of the report's recommendations 
and briefly discuss some activities that the report does not address.
    The GAO recommended that State take the lead in facilitating the 
development of a Government-wide plan to develop an integrated approach 
to nuclear smuggling. We welcome this recommendation. We have already 
begun this process recently meeting with the key agencies involved--
Defense, Energy, Customs, and CIA--to begin developing this plan.
    The Departments of Defense, Energy, and State all receive direct 
second-line-of-defense appropriations. The Department of State's 
responsibility for diplomacy and foreign assistance provides an ongoing 
role in fostering the relationships that ultimately give us access to 
borders and potential ports of entry for nuclear materials. We are in a 
position to coordinate bilateral programs with due regard to local 
conditions and our broader policy agenda with each country. Relying on 
the technical resources and expertise of our partner agencies, we 
believe we now have an effective working framework for interagency 
cooperation and consultation on the best use of appropriated funds for 
the prevention of nuclear smuggling.
    The State Department's Bureau of Nonproliferation chairs a sub-
policy coordination committee on export control assistance that 
includes Defense and Energy as well as other agencies. This committee 
meets monthly and operates under the overall guidance of the 
interagency Policy Coordinating Committee on Nonproliferation Strategy, 
chaired by the NSC. Its purview includes coordinating the deployment of 
radiation detection equipment. The committee coordinates not only the 
activities implemented with State program funds, but also assistance 
provided by the other agencies related to export controls. The 
committee strives to avoid duplication, promote synergies, and benefit 
from each other's experience.
    In addition, the Department's Coordinator of U.S. Assistance to 
Europe and Eurasia has statutory authority to coordinate all U.S. 
assistance to the countries of Europe and Eurasia. The Coordinator 
ensures that there is no duplication of assistance and that assistance 
supports U.S. policy. Nearly all of the recipients of radiation 
detection equipment fall within Europe and Eurasia.
    Finally, the Department of State has a network of program advisors 
assigned overseas. These advisors are uniquely able to assess on a 
daily basis the effectiveness of radiation detection programs. They 
regularly visit foreign border checkpoints and within countries--
virtually anywhere an attempt at nuclear smuggling might occur. Through 
these advisors, State is advantageously positioned to bring together 
U.S. technical experts and host government employees who will be 
trained to use this equipment. We must not underestimate the value of 
training. The most sophisticated technology often fails when 
infrastructure is very basic. In such places, appropriate training in 
searching for and handling the hazards of radioactive materials are key 
to successful and sustained interdiction and deterrence of nuclear 
smuggling.
    State, Defense, Energy, CIA, and Customs have begun to work toward 
the implementation of this GAO recommendation. The group agreed on a 
strategic goal: ``To develop an integrated interagency approach to 
detection and interdiction of special nuclear or radiological materials 
overseas.'' We adopted the elements recommended in the GAO report as 
the outline for developing that approach. These elements include 
defining:
    (1) a unified set of program goals and priorities, including 
participating agencies' roles and responsibilities;
    (2) overall program cost elements;
    (3) time frames for effectively spending program funds;
    (4) performance measures;
    (5) strategies to maintain and sustain the operation of the 
equipment, including cost estimates; and
    (6) an exit strategy for each country receiving assistance, 
including a plan for transferring responsibility for equipment 
maintenance to the host country.
    The group adopted a name, the International Nuclear Detection 
Interagency Working Group. It has identified participating agency roles 
and responsibilities for nuclear detection. Energy agreed to undertake 
a draft global nuclear smuggling threat assessment as part of this 
effort, with Intelligence Community input. As part of its compliance 
report due to the GAO on August 15, 2002, the group hopes to include a 
draft strategic plan.
    I would also like to report progress on a second issue raised by 
the GAO report: problems with equipment, which undermine U.S. 
assistance efforts. The State Department's Bureau of Nonproliferation 
manages the implementation of radiation detection projects overseas 
through its technical partners at Energy and Defense. Recently, the 
Department of Energy's Second Line of Defense (SLD) program agreed to 
take on the repair and replacement of a large array of detection 
equipment overseas on a global basis. This equipment includes portal 
monitors, hand held isotopic identifiers and radiation pagers, and x-
ray vans equipped with gamma detectors. With the transfer of this vital 
maintenance and upgrade program to SLD, repairs will be made more 
swiftly than in the past and obsolete or marginal equipment overseas 
will be systematically upgraded to the highest state of the art 
technology appropriate for the particular country.
    Before closing, it needs to be made clear that Second Line of 
Defense programs go beyond the provision of equipment, training, and 
assistance detailed in the GAO report. They also include the tracking 
of and response to reported incidents of illicit trafficking of nuclear 
materials and radiation sources. The Department of State leads the 
interagency in these efforts. Drawing principally from intelligence, 
official IAEA trafficking reports and other sources, responsible 
offices in the State Department evaluate specific incidents and direct 
our embassies and other posts in aiding host governments in their 
response.
    Given the serious consequences that could flow from trafficking in 
nuclear materials, the Department of State has recently issued revised 
guidelines to all diplomatic and consular posts in reporting and 
handling smuggling incidents. The Department convenes monthly meetings 
of an interagency working group that includes representatives from 
Energy, Defense, CIA, Customs, NRC and FBI to discuss specific 
trafficking incidents in an effort to eliminate duplicative 
investigation while improving information-sharing.
                               conclusion
    Smuggling of nuclear and radiological materials can lead to 
proliferation of nuclear weapons or to the acquisition of a so-called 
``dirty bomb.'' As my testimony emphasizes, the best way to prevent 
nuclear smuggling is to prevent these materials from falling into the 
hands of smugglers. The serious efforts that are being devoted to these 
tasks must be reinforced in case, despite these efforts, smugglers 
nevertheless obtain nuclear or radiological materials. The border 
assistance programs conducted by State, DOE, Defense, Customs, and 
other agencies are designed to deter or to intercept passage of such 
materials across borders. The implementation of these programs by the 
various federal agencies is improving. The GAO report and the interest 
of this subcommittee have contributed to those improvements. The result 
will be a strengthened U.S. Second Line of Defense program and enhanced 
global efforts to protect against proliferation and nuclear terrorism.

    Senator Bingaman. Thank you very much.
    Mr. Ahern, why don't you go ahead.

STATEMENT OF JAYSON P. AHERN, ASSISTANT COMMISSIONER, OFFICE OF 
FIELD OPERATIONS, UNITED STATES CUSTOMS BUREAU; ACCOMPANIED BY 
  DAVID HARRELL, CHIEF, INTERNATIONAL ADVISORY PROGRAMS, U.S. 
                         CUSTOMS BUREAU

    Mr. Ahern. Thank you very much. Thank you for the 
opportunity to testify today.
    Since the collapse of the Warsaw Pact and the breakup of 
the Soviet Union in the early 1990s, the U.S. Customs Service 
has been at the forefront of the U.S. Government overseas 
technical assistance programs to counter the weapons of mass 
destruction threat. These early efforts, some of which were 
funded through Senators Nunn-Lugar-Domenici nonproliferation 
funds, continue today and have expanded significantly in recent 
years to source and transit countries.
    These programs concentrate on in-country technical 
advisors, equipment delivery, and on a wide range of training 
to help foreign governments detect, identify, interdict, and 
investigate the smuggling of weapons of mass destruction. The 
assistance provided to foreign governments also strengthens our 
domestic borders by stopping items before they reach our 
shores.
    Since September 11, at the direction of the President, the 
top priority of the Customs Service has been responding to the 
continuing terrorist threat at our land borders, seaports, and 
airports. I would like to describe to you some of the most 
significant efforts and initiatives on that front.
    Since September 11, Customs has been at alert level one 
across the country at all ports of entry. Level one requires 
sustained, intensive antiterrorist efforts and includes 
increased inspections of travelers and their goods. To help 
ensure that Customs forms a coordinated, integrated 
counterterrorism strategy for border security, Customs 
established a new Office of Anti-Terrorism to coordinate 
Customs' role within our national security architecture.
    Customs agents are also working diligently under Project 
Shield America to monitor exports of strategic weapons 
materials from the United States. They are seeking to prevent 
international terrorist groups from obtaining U.S. sensitive 
technology and weapons and other equipment that could be used 
in a terrorist attack on our Nation.
    To help Customs officers in the field, the Commissioner of 
Customs also established the Office of Border Security. The 
mission of that office is to develop a more sophisticated 
antiterrorism targeting for passengers, conveyances, and cargo 
arriving at our ports of entry throughout the country. Customs 
has also created the Customs Trade Partnership Against 
Terrorism, known as C-TPAT, which is a partnership with some of 
the largest U.S. importers to improve security along the entire 
supply chain. We were very pleased to have Governor Ridge, 
Secretary O'Neill, and Commissioner Bonner announce C-TPAT at 
the Ambassador Bridge in Detroit, Michigan, on April 16, 2002. 
To date there are over 300 signatories to this initiative.
    To complement C-TPAT, Customs developed the Container 
Security Initiative (CSI), which places Customs enforcement 
personnel in major foreign shipping ports. The Customs officers 
will establish international security criteria for identifying 
high-risk cargo containers that potentially pose a risk of 
containing terrorists or terrorist weapons, including weapons 
of mass destruction.
    In addition to having Customs officers in Halifax, 
Montreal, and Vancouver, Customs recently signed agreements 
with the governments of The Netherlands, Belgium, and France, 
and we anticipate other ports in Europe will sign up in the 
very near future, followed by Asia.
    The CSI is an integral part of the President's homeland 
security strategy and is supported by both the G-8 and the 
World Customs Organization. Customs continues to deploy 
technology that will comprehensively inspect arriving and 
departing people and cargo in all port environments for all 
modes of transportation. To date, Customs has deployed 90 
large-scale nonintrusive inspection systems, along with other 
technologies that will assist our inspectors in conducting 
high-confidence, nonintrusive inspections quickly and 
efficiently.
    In 1998 Customs began deploying technology to detect 
radiological sources. Since that time we have deployed over 
4,000 personal radiation detectors and over 200 X-ray van-
mounted radiation detection units. This year we ordered over 
4,000 additional personal radiation detectors and have funding 
for 172 portable radiation detectors and 128 isotope 
identifiers for our ports of entry.
    Customs continues to work closely with the Department of 
Energy to investigate systems and technology to detect 
radiological and nuclear materials to enhance our detection 
capabilities. Specifically, we are working with the Pacific 
Northwest National Laboratory, the Lawrence Livermore National 
Laboratory, and the Special Technology Laboratory. Customs will 
be further working with certain elements of the Department of 
Energy that will be integrated into the President's plan for a 
Department of Homeland Security in order to detect and prevent 
the transport of nuclear explosives into the United States.
    The national strategy calls for the new department to 
develop and deploy new inspection procedures and detection 
systems against the entry of such materials. We are currently 
conducting operational field tests of portal radiation 
detection systems to determine system capabilities and to 
develop procedures and response protocols. The challenge will 
be our ability to differentiate between the numerous consumer 
goods that may give off radiation as well as medical isotopes 
given to humans for detection and treatment of disease in the 
attempt to smuggle and/or conceal a second radioactive source.
    At the conclusion of our assessment period, we will move 
forward with all deliberate speed to implement additional 
detection technology at the Nation's ports of entry.
    I thank you for the opportunity to testify here today and I 
would be happy to answer any questions that might be posed 
later.
    [The prepared statement of Mr. Ahern follows:]
                 Prepared Statement by Jayson P. Ahern
    Chairman Landrieu, Senator Roberts, members of the subcommittee, 
thank you for this opportunity to testify.
    Since the collapse of the Warsaw Pact and the breakup of the Soviet 
Union in the early 1990s, the U.S. Customs Service has been at the 
forefront of U.S. Government overseas technical assistance programs to 
counter the weapons of mass destruction (WMD) threat. These early 
efforts, some of which were funded through Nunn, Lugar, Domenici non-
proliferation funds, continue today and have expanded significantly in 
recent years in WMD source and transit countries. These programs 
concentrate on in-country technical advisors, equipment delivery, and a 
wide range of training to help foreign governments detect, identify, 
interdict and investigate the smuggling of items of WMD. The assistance 
provided to foreign governments also strengthens our domestic borders 
by stopping items of WMD before they reach our shores.
    Since September 11, at the direction of the President, the top 
priority of Customs has been responding to the continuing terrorist 
threat at our land borders, seaports, and airports. I would like to 
describe for you some of our most significant efforts and initiatives 
on that front.
    Since September 11, Customs has been at a Level One alert across 
the country--at all ports of entry. Level One requires sustained, 
intensive anti-terrorist efforts, and includes increased inspections of 
travelers and goods.
    To help ensure that Customs forms a coordinated, integrated 
counter-terrorism strategy for border security, Customs established a 
new Office of Anti-Terrorism to coordinate Customs' role within our 
national security architecture.
    Customs agents are also working diligently under Project Shield 
America to monitor exports of strategic weapons and materials from the 
U.S. They are seeking to prevent international terrorist groups from 
obtaining sensitive U.S. technology, weapons and equipment that could 
be used in a terrorist attack on our nation.
    To help Customs officers in the field, the Commissioner also 
established the Office of Border Security. The mission of that office 
is to develop more sophisticated anti-terrorism targeting for 
passengers and cargo in the seaport, airport, and land border 
environments.
    Customs has also created the Customs-Trade Partnership Against 
Terrorism, ``C-TPAT '' which is a partnership with some of the largest 
U.S. importers to improve security along the entire supply chain. We 
were very pleased to have Governor Ridge, Secretary O'Neill and 
Commissioner Bonner announce C-TPAT at the Ambassador Bridge in 
Detroit, Michigan on April 16, 2002. To date, there are nearly 300 
signatories to this initiative.
    To complement C-TPAT, Customs developed the Container Security 
Initiative which places Customs enforcement personnel in major foreign 
shipping ports. The Customs officers will establish international 
security criteria for identifying high-risk cargo containers that 
potentially pose a risk of containing terrorists or terrorist weapons, 
including weapons of mass destruction. In addition to having U.S. 
Customs officers in Halifax, Montreal and Vancouver, Customs recently 
signed agreements with the governments of the Netherlands, Belgium, and 
France that will place our officers in Rotterdam, Antwerp and Le Havre. 
We anticipate other ports in Europe will sign up in the near future, as 
well as Asia. CSI is integral to the President's homeland security 
strategy, and is supported by both the G-8 and the World Customs 
Organization.
    Customs continues to deploy technology that will comprehensively 
inspect arriving and departing people and cargo in all port 
environments and for all modes of transportation. To date Customs has 
deployed 90 large-scale non-intrusive inspection systems along with 
other technologies that will assist inspectors in conducting high-
confidence, non-intrusive inspections quickly and efficiently.
    In 1998, Customs began deploying technology to detect radiological 
sources. Since that time, we have deployed over 4,000 personal 
radiation detectors and over 200 x-ray van mounted radiation detection 
units. This year we ordered over 4,000 additional personal radiation 
detectors and have funding for 172 portal radiation detectors and 128 
isotope identifiers for our ports of entry.
    Customs is working closely with the Department of Energy to 
investigate systems and technology to detect radiological and nuclear 
materials to enhance our detection capabilities. Specifically, we are 
working with the Pacific Northwest National Laboratory, the Lawrence 
Livermore National Laboratory and the Special Technology Laboratory. 
Customs will be working closely with certain elements of the Department 
of Energy that will be integrated into the President's plan for a 
Department of Homeland Security in order to detect and prevent the 
transport of nuclear explosives into the United States. The National 
Strategy calls for the new Department to develop and deploy new 
inspection procedures and detection systems against the entry of such 
materials.
    In addition, Customs is currently engaged with the Department of 
Transportation in the Container Working Group, with the U.S. Coast 
Guard for targeting sea containers and with the Federal Aviation 
Administration for detection technology for cargo and baggage.
    We are currently conducting operational field tests of portal 
radiation detection systems to determine system capabilities and to 
develop procedures and response protocols. A challenge will be our 
ability to differentiate between the numerous consumer goods such as 
cement, porcelain, potash, and bananas that may give off radiation, as 
well as medical isotopes given to humans for detection and treatment of 
disease and the attempt to smuggle and/or conceal a second radioactive 
source.
    Concerning other possible WMD, Customs, in partnership with Johns 
Hopkins University, is working to establish a chemical/biological 
project to investigate systems and technologies to augment and enhance 
our existing detection capabilities.
    Thank you again, Madam Chairman and the members of the 
subcommittee, for this opportunity to testify. I would be happy to 
answer any questions you may have.

    Senator Landrieu [presiding]. Mr. Harrell, I know you are 
not scheduled, but would you like to add anything before we go 
into our first round of questioning?
    Mr. Harrell. The front end of Mr. Ahern's statement did 
include an overview of our international technical assistance 
efforts. We have been involved in international technical 
assistance against the smuggling of weapons of mass destruction 
since the early 1980s. We were involved with the cooperative 
threat reduction program, later on the State Department-funded 
NDF, Nonproliferation Disarmament Fund, program.
    We have been working since 1986 with DOD in the DOD-Customs 
counterproliferation program, and currently we are the 
executive agency for the Department of State for the export 
control and related border security program, the so-called EXBS 
program. That is the program that places advisers overseas. We 
currently have some 22 advisers in 15 locations, covering over 
25 countries, and the program appears to be expanding into 
regions, into the Middle East and Asia in the coming year.
    Thank you.
    Senator Landrieu. Thank you very much.
    We will begin with our first round of questioning and do 
probably 6 minutes and if we have time we will have a second 
round.
    Let me begin, Mr. Ambassador, with you. I am sorry I had to 
step out, but of course we reviewed your testimony. You 
mentioned in your testimony that an interagency strategic plan 
is almost complete. Ms. Bronson, you spoke at some length in 
your testimony about that strategic plan and vision or 
strategic vision for what we are attempting to do.
    Could you, though, tell us, Mr. Ambassador, a little bit 
more about the plan? What does it do? Describe, if you could, 
for the record each agency's role that is identified here in 
terms of their hopefully complementary role. Then I am going to 
ask each of the panelists for their views of this strategic 
plan.
    Ambassador.
    Ambassador Wulf. I think it is fair to say the plan is 
still being developed, so it is not possible to give a 
definitive answer. But I think it is worth clarifying because 
my testimony may have been unclear on this. I discovered this 
last evening when we got comments in from some of the other 
agencies on the testimony.
    There are two interagency groups that are working on this 
issue. The strategic plan is under the coordination of the 
National Security Council (NSC) and they are looking at the 
overall approach to how to deal with the broad questions of 
implementing all aspects of the cooperative threat reduction 
program and making sure that there is a coherency across the 
board on that.
    There is a second group and that is the group that is 
chaired by the State Department, that deals solely with the 
question of nuclear detection equipment at international 
borders, and there again we have not yet totally defined the 
full gambit of the responsibilities of the various agencies. 
What we have committed to do is, as both Mr. Caravelli and Ms. 
Bronson have indicated, to coordinate closely together to 
ensure that we get the most bang for the buck, and that is what 
we are about. We are not in a position yet to say that we have 
a plan in place.
    Senator Landrieu. Are you in a position to recommend the 
continued work of both of these entities or is it your view 
today that the work should be better coordinated, or what would 
your suggestions to us be? Is it good to have these two 
interagency groups or should we try to combine them into one? 
If so, how do you see the roles, the different emphasis of 
roles?
    Ambassador Wulf. I think it is extremely important to have 
both groups, one to, shall we say, paint the large picture and 
the other to paint one small portion of the overall solution. 
The question of interdicting or preventing leakage of weapons 
of mass destruction from the former Soviet Union, as you 
indicated in your opening statement, is a tremendously large 
problem. As I indicated in my statement, we have received 
pledges from the other 6 members of the G-7 to pledge $10 
billion to match our $10 billion that we pledge over the next 
10 years to devote ourselves to dealing with this issue.
    So the question of needing an overall, overarching group at 
the NSC level seems to us totally appropriate. Then the 
question comes down to how do you deal with this one portion of 
the overall program, which is interdicting nuclear smuggling, 
and that is being chaired by State, but we report to the NSC. 
We are a subcommittee, if you will, of that overall larger 
committee.
    Senator Landrieu. I am going to ask each panelist just to 
comment about this sort of strategic vision and your thoughts 
about where it is, the strategic plan now, and how your 
particular agency fits into it, comments good or bad. Mr. 
Ahern, starting with you.
    Mr. Ahern. Thank you, Senator. Certainly the Customs 
Service participates in a lot of the coordinating entities that 
are out there and we support the defense in depth concept. 
Certainly, even though we are an interdiction agency at the 
borders, we are also very much focused on prevention. We 
believe strongly in the strategy of pushing the borders back, 
trying to attack things at their source to make sure that we 
have greater control right at that point.
    Further, we also believe, insofar as there is not an 
opportunity to get it at the source, we have an opportunity to 
work collaboratively with those countries' customs officers and 
through our advisers--we have 22 advisers overseas overseeing 
25 countries--to oversee their border mission, as well as their 
deployment of technology. They are basically the eyes and ears 
of the Customs Service and feed back to the Department of State 
on some of the equipment and other things that have been 
deployed that may fall into a state of disrepair. So we need to 
make sure we continue that.
    Certainly, the Customs strategy to continue to move through 
the Container Security Initiative, pushing it back to try to 
again deter things from being laden upon ships or put upon 
aircraft coming into the United States, is something we support 
very strongly, and we will continue to work through this.
    I think as a Government we need to pick the pace up, 
though.
    Senator Landrieu. Ms. Bronson.
    Ms. Bronson. As Ambassador Wulf has indicated, the 
completion of the plan from an interagency perspective is still 
in its initial phases. From a DOD perspective, I think a vision 
of having self-sufficient, self-sustaining countries that can 
pick up the responsibility for policing their own borders 
sometime down in the future ought to be our ultimate goal.
    The two groups that we are talking about, one that is being 
run by the NSC, whose job is to pull together an overarching 
strategic plan, and the narrower group that is looking at the 
specific nuclear issues, can be complementary. When you ask 
about DOD's specific strengths, in my written testimony I give 
some examples of some prototype projects that we are looking 
at. Those play to strengths of our know-how in how to provide 
security. We routinely work with military and paramilitary 
entities. Much of the border security in the countries we are 
talking about is done by the military and so there is a natural 
nexus of a relationship there.
    We have experience providing training, combined with an 
approach that focuses on the life cycle costs of equipment, the 
life cycle costs of creating an internal training ability on 
the part of these countries. So the train-the-trainer mode of 
doing things is very much an approach that DOD brings to the 
table.
    We have a number of contracts in place. Our extensive 
infrastructure that we use through the CTR program that is 
administered by Defense Threat Reduction Agency (DTRA) is 
another strength. Now, that is not meant to be exhaustive, but 
those are some examples of where DOD brings its own unique 
strengths to the larger USG-coordinated assistance program.
    Senator Landrieu. Mr. Caravelli, I will get to you in just 
a moment, but my time has expired. I would like to recognize 
Senator Roberts and in my second round we will get to that and 
a few other questions I have.
    Senator Roberts.
    Senator Roberts. Thank you, Madam Chairman.
    I have a question for Ms. Jones. Thank you for all of your 
work. Based on your review, your findings in the GAO report, 
which agency do you believe should be the lead implementing 
agency for providing U.S. assessments to combat nuclear 
smuggling overseas and why?
    Ms. Jones. I think our recommendation in the report, 
Senator Roberts, spoke to the State Department as being the 
coordinating agency that will pull together the other agencies 
that are working in this area. Because of their past history of 
coordinating these kinds of assistance programs overseas, we 
felt that they would be the most appropriate organization to do 
that.
    Senator Roberts. For all the witnesses, what are each of 
your views on the State Department serving as the lead 
coordinator for international assistance, as recommended in the 
GAO report? We can just go down the line.
    Senator Landrieu. He asks this question a lot better than I 
could. He does a great job at this. This is the answer we are 
looking for.
    Senator Roberts. Mr. Caravelli.
    Mr. Caravelli. Senator, I fully agree that State should 
play that coordinating role.
    Senator Roberts. Ms. Bronson.
    Ms. Bronson. My personal view is that the National Security 
Council staff should play that role.
    Senator Roberts. Interesting.
    Ambassador Wulf, I know what your answer is.
    Ambassador Wulf. It is an easy one, thank you. [Laughter.]
    I would just add, though, that we see our role as not the 
implementing per se, because we do draw very heavily on the 
technical expertise that the Department of Energy provides and 
the technical expertise that the Customs Department provides. 
So we see it as very much an area in which our program funds 
are oftentimes passed through to those agencies.
    But with respect to the coordination of the activity, we do 
believe it is appropriate in the State Department. Thank you.
    Senator Roberts. So it is a team effort, but you are the 
quarterback?
    Ambassador Wulf. Modestly, I guess I should say yes.
    Senator Roberts. All right.
    Mr. Ahern. I think certainly it is an effort of 
collaboration. The coordinating entity has worked fine for us. 
As far as the Department of State taking the lead, certainly 
when it comes to actually being there to deploy technical 
expertise in an advisory capacity overseas, we have called on a 
lot of our Customs components to do that, both from an 
interdiction, from a technological standpoint, training, as 
well as from an investigative standpoint.
    So we believe that is what we can add to the process and we 
are very comfortable with the Department of State taking that 
coordinating role.
    Senator Roberts. Mr. Harrell, do you agree with this 
assessment?
    Mr. Harrell. Yes, I do. I think that the Department of 
State, after all, is the policy department for foreign policy 
and this is a foreign policy issue when you are dealing with 
foreign governments. I think that I agree with the GAO's report 
that the process certainly can be improved and that is what we 
are all working on very assiduously right now, to get the 
process better.
    Senator Roberts. Well, apparently there is agreement, with 
the exception of Ms. Bronson, who obviously thinks the National 
Security Council, and I would hope that they would be involved, 
or at least peering over your shoulder, that the State 
Department would be the lead coordinator.
    Now, my next question: Is there agreement between the 
various agencies on the type and amount of radioactive material 
we are looking for and, if so, what is the standard that we are 
using or, basically, is there a standard? Ms. Jones, would you 
like to try that one out?
    Ms. Jones. In terms of the type of equipment that is being 
deployed, I think one of the issues that we raised in our 
report is that DOE and DOD were deploying portal monitors that 
basically had gamma and neutron detection capabilities, while 
the State Department was deploying portal monitors that only 
had gamma. In our discussions with the agencies as well as the 
IAEA, we came to find out that the IAEA does have a standard 
that you should have the portal monitors have gamma and neutron 
capabilities. So from that perspective, there has been a 
standard set, Senator.
    Senator Roberts. Mr. Caravelli.
    Mr. Caravelli. Senator, in terms of amounts, on the nuclear 
side--and there is quite a distinction between what I am about 
to say, nuclear as opposed to radioactive--on the nuclear side, 
we estimate within Russia alone there are about 600 metric tons 
of material that would be vulnerable to theft or diversion. The 
radioactive problem, as we are beginning to discover, is also 
an enormously daunting problem.
    We have developed, using the technical expertise of our 
laboratories, a methodology to begin assessing those 
radioactive sources that are not just health threats, which is 
the way that we have traditionally looked at the radioactive 
problem, but we are also trying to look at the radioactive 
sources problem today in light of events of the past September 
in terms of security or threat to U.S. interests or the 
interests of our friends and allies.
    For that reason, I think we have begun to come to some 
understandings of those radioactive sources that are again most 
threatening. Now, the material, the portal monitors we put in 
place at these countries on the borders we have discussed have 
a very broad capability against both nuclear and radiological 
smuggling, but again the problem is very daunting, and I think 
we are best advised to try to develop those capabilities in our 
overseas work that allow us to detect the entire spectrum of 
those threats.
    Senator Roberts. Ms. Bronson.
    Ms. Bronson. Senator Roberts, I am going to rely on my 
technical experts for that answer, so I will provide you an 
answer for the record.
    [The information referred to follows:]

    We concur with Mr. Caravelli's estimate of approximately 600 metric 
tons of fissile material in the former Soviet Union (FSU) that may be 
vulnerable to theft or diversion. We also agree with the view that the 
problem of radioactive sources in the FSU is a significant one, which 
the U.S. Government (USG) is only now beginning to grasp.
    The IAEA has identified a common standard for devices intended to 
detect nuclear smuggling. USG agencies, however, view this standard as 
insufficient to enable detection of the spectrum of fissile material 
and radioactive sources of concern. Thus, the Department of Defense and 
other USG agencies are pursuing efforts within the International 
Nuclear Detection Interagency Working Group to define more appropriate 
standards for detection devices provided to FSU states through USG 
assistance programs.

    Senator Roberts. All right, thank you.
    Mr. Ambassador.
    Ambassador Wulf. Very briefly, obviously we agree with DOE 
that the materials we are talking about fundamentally are 
enriched uranium and separated plutonium on the weapons side 
and on the radioactive side we would also agree that it needs a 
broader look than just the health.
    The amount of material that we are trying to interdict 
obviously is a question we do not know the answer to. We know 
the amount in very rough terms of material that is in Russia, 
for example, of nuclear material or the amount--and we have a 
guesstimate on the amount of radioactive material. But how much 
has actually been subject to smuggling activity, we just simply 
do not know the answer to that.
    We do have a report that the Russian customs service has 
given to the IAEA both last year and this year, and last year 
they estimated something like 500 incidents or interceptions 
that had occurred involving nuclear materials; this year alone 
so far, 400 incidents or interceptions. I might add that they 
attributed 95 percent of those interceptions to portal 
monitoring equipment. I wish I could say it was necessarily 
portal monitoring equipment provided by the United States, but 
their report did not say that.
    But it is quite clear that there is a problem, that this 
portal monitoring equipment is at least contributing to solving 
some portion of that problem.
    Senator Roberts. My time is up and, Mr. Ahern, Mr. Harrell, 
yours is not. Please.
    Mr. Ahern. I would go ahead and pretty much underscore what 
has been stated previously by the Department of Energy. 
Certainly that is the lead entity we take our guidance from 
relative to setting standards, both for what we are seeking and 
also for what we are using for technology to deploy against 
that.
    Senator Roberts. A nod of the head means yes?
    Mr. Harrell. I agree with that statement.
    Senator Roberts. My time has expired, Madam Chairman, but I 
have other questions.
    Senator Landrieu. Senator Carnahan.
    Senator Carnahan. Thank you, Madam Chairman, for holding 
this hearing on a very timely and important topic. Preventing 
nuclear wastes from getting into the wrong hands is our highest 
national security priority and it is important that we continue 
to focus attention on these issues through hearings like this 
and other activities of the subcommittee.
    I have a statement that I would like to submit to the 
record and would like to ask a few questions.
    [The prepared statement of Senator Carnahan follows:]
              Prepared Statement by Senator Jean Carnahan
    Thank you, Madam Chairman. I'd like to thank all of our witnesses 
for coming to brief us this afternoon.
    This is a very important topic. Since September 11, Congress has 
been carefully examining our efforts to protect America against 
terrorist attacks. Strengthening our ability to prevent smuggling of 
nuclear material from the former Soviet Union is critically important 
to our national security programs.
    The recently released GAO report on U.S. Government's efforts to 
help other countries prevent nuclear smuggling will certainly help us 
make these programs more efficient and effective.
    I am looking forward to learning how the Departments of Energy and 
State intend to respond to the recommendations made in the GAO report.
    On a related subject, I also wanted to mention the legislation I 
introduced in May, which was incorporated into the Senate's Defense 
Authorization bill. This is complementary to the efforts discussed in 
the GAO report. My legislation would support the expansion of DOE's 
Material Protection Control and Accounting program to help secure 
radiological material that could be used for so-called ``dirty bombs'' 
and expand their work to secure nuclear material outside of the former 
Soviet Union.
    Expanding and fully funding these activities would provide an 
excellent ``first line of defense'' against these dangerous materials 
ending up in the hands of terrorists. These programs, combined with the 
``Second Line of Defense'' activities our witnesses are talking about 
today, make an important contribution to our national security.

    Senator Landrieu. Without objection, the statement will be 
submitted.
    Senator Carnahan. Today's hearing is focusing on Second 
Line of Defense at the borders to prevent smuggling and 
smugglers from absconding with nuclear material. But our first 
line of defense is preventing would-be terrorists from stealing 
weapons-usable materials from the facilities where they are 
used or stored. To that end, I have introduced the Global 
Nuclear Security Initiative. This bill would expand the nuclear 
material control effort under the Energy Department's purview 
to countries outside of the former Soviet Union. It would also 
expand the program to include radioactive materials in addition 
to nuclear weapons-usable materials.
    This bill was incorporated as part of Senator Domenici's 
amendment into the Senate's National Defense Authorization Act 
earlier this month.
    Mr. Caravelli, my question for you is would you speak to 
the need for such broadened efforts worldwide?
    Mr. Caravelli. Yes. Thank you, Senator. The short answer is 
that there is a requirement in my judgment for such an effort 
worldwide. I can give you an example from both the nuclear side 
and the radioactive side, if you will. Without going into the 
politics of any of the countries I am about to discuss, I think 
one could make a very strong case on technical grounds that, in 
terms of nuclear security, that enhanced cooperation between 
the program that I run, the MPC&A work, with countries such as 
China, India, and Pakistan again on simple technical grounds 
makes a great deal of sense, obviously, countries beyond the 
former Soviet Union.
    On the radioactive side, because of funding already 
provided to my program in the fiscal year 2002 emergency 
supplemental, we have begun an initiative that we have spoken a 
great deal to Ambassador Wulf about, to take the lessons 
learned from the work we have done on the nuclear side and 
apply it to the radioactive problems.
    One of the things we are doing with the assistance and 
concurrence of the State Department is to begin a program with 
the International Atomic Energy Agency which will begin to 
apply those physical security standards to radioactive sources 
in many countries. The IAEA shares our concerns with this. So I 
think the very simple answer to your question on both the 
nuclear side and the radioactive side is yes, there is, again 
on technical grounds, very strong reasons to look very 
carefully at expanding this type of work to countries beyond 
the former Soviet Union.
    Senator Carnahan. Well, I think you have already addressed 
my second question, which was how you would incorporate these 
security initiatives into your existing program. So I thank you 
for that.
    Mr. Caravelli. Thank you.
    Senator Carnahan. Thank you, Madam Chairman.
    Senator Landrieu. Thank you.
    Senator Bingaman may be rejoining us, but, Mr. Caravelli, 
you testified around this point, but could you just for the 
record describe the different types of material we are looking 
for and the differences in searching between the radiological 
materials and the nuclear materials, basically plutonium and 
highly enriched uranium? The kind of detectors I understand are 
different for both. So my question would be, when we talk about 
detectors, are we talking about one type, two types, three 
types, etcetera?
    Mr. Caravelli. Yes, thank you, Senator. On the nuclear 
side, I think as Ambassador Wulf mentioned, what we seek to 
prevent is the smuggling or the diversion of highly enriched 
uranium and separated plutonium. These are the building blocks, 
of nuclear devices. The challenge is simply that even small 
amounts of these materials could be used--again, there are a 
lot of technical considerations here--could be used again to 
fabricate a nuclear device.
    So one of the challenges here is to try to interdict, if 
you will, obviously at the source, to prevent the smuggling, 
but if the first line of defense does not work, to have the 
capability to detect even small amounts of this type of 
material.
    In addition to that, as we tried to respond to Senator 
Carnahan's question, radioactive sources are also a source of 
concern as well--the dirty bomb scenarios that you have heard a 
great deal about. For the equipment that we deploy at the 
Department of Energy--and I cannot speak to those capabilities 
used by other departments--we have developed portal monitors 
that encompass the capability to detect small amounts of both 
types of material we are talking about here, nuclear materials 
and radioactive materials, and we think that certainly for the 
overseas work where we do that, that makes great sense.
    I think one of the standards here that I think you are 
hearing from all the panelists is that homeland defense really 
begins far from our borders. It is that perspective that I 
think over time, from the beginning of our SLD program, has led 
us to try to develop a robust set of capabilities against both 
nuclear and radioactive smuggling.
    Senator Landrieu. I would like to ask GAO to comment about 
this, because in my reading and preparation for this hearing--
and I could be thinking of this in an inaccurate way. There 
seems to be a great deal more difficulty in identifying the 
pieces necessary to fabricate a nuclear bomb, if you will, than 
identifying the more abundant other sort of radiological 
material, and maybe the detectors that we currently have does 
one well but not necessarily the other, and we may need to rely 
a little bit more on human intelligence for one and more 
technological equipment for the other.
    But if that is not the appropriate conclusion, then let us 
comment and get that on the record. Ms. Jones, maybe from your 
study you could comment about the effectiveness of these 
monitors for both kinds of materials that we are trying to 
track, to protect.
    Ms. Jones. Let me comment on a couple of different points, 
Senator. One is there are a number of different kinds of 
equipment. We have talked today about pagers, the equipment 
that is worn on the belt. Our understanding of those pagers is 
that they can only detect gamma radiation. They could not do, 
for example, plutonium.
    We have talked about portal monitors. Our understanding 
from talking with DOE and the vendors is some vendors can 
produce the equipment that can do the kind of wide-ranging 
activities that Mr. Caravelli was talking about, that can 
detect both nuclear material as well as radiological material, 
but other vendors are producing portal monitors that can only 
detect gamma radiation.
    Senator Landrieu. Do we have an accurate list of those 
vendors and equipment and are we in the process of identifying 
which ones can do the whole deal and which ones cannot?
    Ms. Jones. GAO has not done that. We have talked with a 
number of vendors. There has been a number of activities out 
there. For example, I think it was back in 1997 when the 
Austrians started an effort called the Illicit Trafficking 
Radiation Detection Assessment Program (ITRAP) and they looked 
across a number of different vendors, at a number of different 
equipment, and tried to establish some standards. So now you 
will hear some of your vendors saying we are ITRAP-certified.
    I know that DOE is doing a lot of study at their 
laboratories assessing vendors and equipment. So I think that 
those kinds of activities are happening right now. I know the 
Customs Service is also working with DOE labs to look at 
vendors. As Mr. Ahern said, they are also testing some of that 
equipment.
    Senator Landrieu. I am sure it is obvious to our panelists, 
but I think this would be a very appropriate time to have some 
rigorous certification program in the event that we are getting 
ready to step up in a significant way our expenditures, to make 
sure that we are encouraging the purchasing of materials, 
obviously, detectors that work over the wide variety, or 
determine that there is one way to detect certain materials the 
best and another way to detect these other materials, or 
different strategies might be used.
    Does anybody else want to comment about that? Then I have 
another question about threat assessment.
    Ambassador.
    Ambassador Wulf. If I could just make a general comment, I 
think it would be a mistake to leave the impression that 
equipment alone provides an answer. We clearly know that 
shielding can clearly defeat virtually any detector that is out 
there if enough lead is used, or whatever the materials that 
you are trying to protect from the detector.
    That is why we think an important component of this whole 
program is the training of the inspectors, and that is why 
Customs, I think, spends a great deal of time and effort in 
these countries that did not have any customs at all when the 
Soviet Union collapsed, is now trying to get them sophisticated 
enough that when they go to a vehicle that is crossing a 
border, that they not just rely on the technical fix, but they 
also put the human factor in that. Clearly, that is ultimately 
the best protection.
    Senator Landrieu. Thank you for making that point.
    Mr. Ahern.
    Mr. Ahern. I would like to actually elaborate on that a 
little bit more and thank Ambassador Wulf for starting it up 
for us, because certainly technological deployments at our 
ports of entry are a very good part of an overall strategy, but 
it is just one component of that strategy. We rely very heavily 
on getting good intelligence and good information so that we 
can put that through our expert targeting system, so we can 
look for anomalies and shipping patterns and trends to make the 
best determination on the millions of containers and 
conveyances coming across our borders into the United States. 
We need to make the right selections on what it is we need to 
look at.
    There are also capacity and throughput issues with some of 
the technology. When you are looking at a very fragile economy 
in this country today, we do not want to further damage that by 
having unnecessary delays at our ports of entry, be it air, 
land, or sea. So we need to make sure we have the right 
technology that has capacity and throughput, so that we can go 
ahead and have a good, efficient, and a high level of 
confidence on that as well.
    Training is a significant other part of the strategy. We 
need to make sure that we continue to raise the level of 
awareness of our officers deployed in the field. There was a 
statement that was represented in the GAO report that I would 
like to take exception with relative to the 140 people that are 
being trained, out of our over 7,000 officers. That is 
accurate, but it is only one piece of it. That is 144 people 
that are actually being trained at the Radicad Academy out in 
the State of Washington through the Department of Energy on 
being much more of a detailed person relative to weapons of 
mass destruction. But we have trained over 5,000 of our 
resources in identification of weapons of mass destruction, as 
well as over 400 people as hazardous material coordinators for 
our ports of entry throughout the country as well.
    We continue to raise the level of awareness for our 
officers each day as we continue to work through our national 
security mission. So there are a variety of different 
strategies that we would like to continue to employ, but we 
believe it starts with information, it includes technology, it 
includes training.
    Further, I believe it is also important to keep the trade 
involved with this whole process as well, through the Customs 
Trade Partnership Against Terrorism. We want to include supply 
chain security by engaging carriers, importers, and 
manufacturers in the foreign location to make sure that they 
are exercising the highest degree of care and diligence in 
controlling their goods that are destined for the United 
States. To ensure high levels of security and control on those 
legitimate shippers, we can focus our attention on those things 
that may not rise to that level of legitimacy. Then we can 
deploy the technology, targeting and our human resources on 
those shipments when they arrive in the United States.
    Senator Landrieu. I thank you for raising that. I have 
another question and then I will get to Senator Roberts in just 
a moment. But I really appreciate you raising the issue of the 
private sector responsibility in this regard and how this truly 
has to be a partnership, not just among countries, but a 
partnership between the governments and our commercial sector, 
because frankly neither can do it alone and we have really got 
to have, not just interagency coordination, but some sort of 
really pretty aggressive and thorough outreach to the 
commercial side of this.
    Senator, if you will just allow me my latitude as chair to 
ask one other question, if I could.
    If each of you would just comment. Ms. Jones, I asked you 
about when you looked at the underlying threat that was trying 
to be met in each of the 30 countries, are we doing an accurate 
threat assessment as we set up our approach to understand that 
the threat might be either greater or less, the differences of 
the threat in terms of degree or scope, country to country?
    If you would comment on that, and I am going to ask each 
one of you to give maybe 30 seconds in terms of are we doing a 
good job, if we could do a better job of assessing that threat, 
and is that important?
    Ms. Jones. I certainly think it is important, Senator. 
There is no question about it, a threat assessment has to be 
one of the bases for setting priorities in terms of how you are 
going to spend this money, because you are never going to have 
enough to do everything at one time. In our working with the 
various programs, I would like to point out that the Second 
Line of Defense program at DOE did a very, very good job of 
doing that kind of risk assessment to use and guide their 
program in terms of where they plan to use the different 
technologies.
    Senator Landrieu. Mr. Caravelli, your 30 seconds.
    Mr. Caravelli. I appreciate what Ms. Jones said. That is 
exactly what we try to do, Senator. We use our relationships 
with the State Department, with the intelligence community, and 
the simple fact is we will not commit any resources to our SLD 
program until we have done this type of assessment.
    Senator Landrieu. Ms. Bronson.
    Ms. Bronson. I think we have a good base for a threat 
assessment. It would be useful to make sure we have an 
integrated threat assessment that looks across the range of 
chemical, biological, and nuclear materials, so we are doing it 
in an integrated fashion.
    Senator Landrieu. Ambassador.
    Ambassador Wulf. I would agree with both the preceding 
speakers. Clearly, we know somewhat where the threat is in the 
nuclear area because of what we know, have some knowledge of, 
of where the nuclear materials are, what countries have the 
most amounts of separated plutonium or highly enriched uranium.
    On radioactive materials, our knowledge is not as good. But 
clearly, we have and we continue trying to improve our 
understanding of what threat each individual country presents 
in terms of materials that are there and then try to put our 
priorities accordingly. So I totally agree with our previous 
speakers.
    Senator Landrieu. Mr. Ahern.
    Mr. Ahern. Very briefly, right after the events of 
September 11, our Commissioner established the Office of Anti-
Terrorism. Recently that office tasked the Intelligence 
Community to come up with some additional threat assessments 
for locations because, certainly as we know, source countries 
can easily be identified, but as soon as you focus on source 
countries, transit countries then emerge. So we need to make 
sure that we have a very fluid threat assessment that 
constantly changes as the threat constantly changes. Also, that 
we remain contemporary with it as that constantly will change 
and then deploy accordingly.
    Senator Landrieu. Thank you.
    I am going to recognize Senator Bingaman because he was not 
able to get his first round in and then we will go to Senator 
Roberts.
    Senator Bingaman. Thank you very much, Madam Chairman. I 
had to leave for just a minute and I apologize for that.
    I am trying to get straight in my head sort of where we are 
with regard first to the deployment of radiation detectors at 
our own borders. I see your testimony, Mr. Ahern, here about 
saying that this year Customs has ordered over 4,000 additional 
personal radiation detectors. I think you say right before that 
that since 1998, when you began deploying this technology, you 
have deployed over 4,000, and you have now ordered another 
4,000.
    Once you get those 8,000, what portion of the job has been 
done?
    Mr. Ahern. Clearly, as far as that should be a sufficient 
number to make sure that each one of our inspectors deployed in 
the field should be outfitted with a radiation detector pager 
on their side. That is again only one piece of our overall 
strategy. That is not a stand-alone piece of technology that we 
are going to rely solely on, because we realize that that has 
limitations. But we then want to infuse portal detection 
technology to make sure that we have the ability to go ahead 
and look at some of the larger-scale systems that could be 
deployed at our ports.
    Senator Bingaman. Let me ask about that. You use your 
language pretty carefully here. You say: ``This year we ordered 
4,000 additional personal radiation detectors and have funding 
for 172 portal radiation detectors and 128 isotope 
identifiers.'' So that you have funding for the portal 
radiation detectors and the isotope identifiers, but you have 
not ordered them?
    Mr. Ahern. Not yet, sir. What we are currently doing, is 
testing in the port of Detroit the portal detection system that 
we are using in the Ambassador Bridge commercial entry. We want 
to make sure we make the right decision on the technology we 
are going to deploy in the field, because in the port of 
Detroit you have 6,000 trucks a day that come across the border 
from Canada. You have some major corporations that also trade 
in that area as well, with ``just in time'' inventories. We 
need to be very precise on the selections we make of the 
deployment of technology in those environments to make sure 
that we hit the capacity and throughput, all the while 
maintaining a high level of efficiency for national security.
    Senator Bingaman. So we really do not have today any portal 
radiation detectors deployed at any of our ports of entry?
    Mr. Ahern. The only portal device we currently have is the 
one in Detroit. There is a second one that should start later 
this week on the vehicle lanes in Detroit. Those would be the 
first two. We are doing site surveys right now for the rest of 
the deployments that we are going to be doing for the remaining 
172, and once we make a decision in September which technology 
we are going to go to, then we will make the procurement at the 
end of the year.
    Senator Bingaman. Now, presumably the decision you make on 
which technology to go with will also be consistent with the 
decision that the rest of the Government makes. We are not 
buying one type of radiation detection technology for use in 
Kazakhstan and a different one for our use, I would not think.
    Mr. Ahern. To answer the Customs perspective here on the 
decisions we will be making, sir, is that we will be working 
collaboratively with the Department of Energy and the National 
laboratories on the specific types of technology that will work 
in our operational environment.
    Senator Bingaman. Okay. Well, maybe I should ask. 
Ambassador Wulf, is there a plan to--are we going to have a 
situation here where Customs has one idea what technology works 
and someone else in the Government has a different idea?
    Ambassador Wulf. No, sir. The only reason I had some 
question on my face perhaps when you asked that question was 
that some of the technology simply may be too sophisticated for 
the recipient and it is quite possible that--what we have in 
the United States clearly, I do not think it will be too 
sophisticated for the recipient. But some of these portal 
monitors that we will be setting up and have already set up are 
located in some fairly isolated areas, oftentimes without 
electricity, oftentimes with very, very poor maintenance.
    So you have to ask yourself, do you settle for something 
that is a little less sophisticated than the best, but perhaps 
is more reliable and works over a longer period of time in 
doing your job? It is always a tradeoff. There is no good 
answer to that question, but it is one that you have to ask 
yourself.
    Senator Bingaman. Is our deployment of portal radiation 
detectors at ports of entry going in and out of the Soviet 
Union or former Soviet Union states as sparse as our--I mean, 
we have one operating in the U.S. at one port of entry. How 
many do we have operating at ports of entry going in and out of 
the former Soviet Union, or out of Russia?
    Ambassador Wulf. I can get you the answer. I do not have it 
with me right now, but it is certainly many, many more than 
one.
    [The information referred to follows:]

    Witness did not respond in time for printing. When received, 
information will be retained in committee files.

    Senator Bingaman. Yes. Mr. Caravelli?
    Mr. Caravelli. For the Second Line of Defense program, 
Senator, we have, as I mentioned in my testimony, we will have 
deployed by the end of this fiscal year about 230 portal 
monitors at 20 Russian sites. That includes airports, seaports, 
and border crossings.
    Senator Bingaman. The technology that you settled on there 
for those 220, you are confident that that does the job, or 
this was just all that was available and you had to do 
something in a hurry? Because I guess Customs is saying that 
they have not acted yet because they are not certain which is 
the best technology, and you have already rushed out and bought 
220 of these.
    Mr. Caravelli. Our program, Senator, goes back to 1998 and 
we have applied the lessons learned. I think Ambassador Wulf 
has stated something that is very important. We work in a very 
difficult, environmentally challenging environment, in 
environmentally difficult areas quite often in our work. So we 
have developed and put a great deal of emphasis on development 
of portal monitors that work in the real world as we find it.
    We believe in terms of the capabilities that we have found 
an appropriate balance between sustainability, which is a point 
that Ms. Bronson made, as well as capability in terms of being 
able to detect both nuclear and radioactive materials, not only 
that are attempted to be smuggled, but also that we have 
learned lessons from the past 4 or 5 years of our work in terms 
of the types of shielding, the types of techniques that would-
be smugglers employ to try to beat those types of systems.
    So the short answer is, I believe we have found an 
appropriate balance. Is it an absolute guarantee at any of our 
sites? The honest answer is no, but I think it is one that is 
responsible and based on the forethought of an approach that 
balances, as I said, capability against the real world 
sustainability of the equipment.
    Senator Bingaman. My time is up. Thank you very much.
    Senator Landrieu. Thank you.
    Senator Roberts.
    Senator Roberts. I would be happy to yield some time to the 
Senator. I think he is on an extremely important line of 
questioning. If you would like to continue, Jeff, if you have 
another one, or I can start off on my line if you want to.
    Senator Bingaman. Thank you. Let me just ask one other 
question on this and then I will have to leave.
    Ms. Jones, you talked about gamma and neutron capabilities 
and presumably some of this technology has both gamma and 
neutron capabilities and some of it has one.
    Ms. Jones. Correct.
    Senator Bingaman. Not the other.
    Ms. Jones. Correct.
    Senator Bingaman. I guess Customs is probably trying to get 
both. I assume that is the case. Am I to assume that what we 
are deploying overseas through the Cooperative Threat Reduction 
program has not gotten both? Do you have answers to those 
questions?
    Ms. Jones. DOE and DOD have been deploying equipment that 
has both. State, as the Ambassador had mentioned, was deploying 
equipment that only had the gamma radiation detection 
capability.
    Senator Bingaman. So the 220 that we have deployed do have 
capability to detect both gamma rays and neutron?
    Mr. Caravelli. Correct, for the DOE program.
    Senator Bingaman. Is this something that Customs is 
intending to do once you make a judgment on this?
    Mr. Ahern. Obviously, we would like to get the technology 
that has the greatest application for more than just a single 
use, but we are going to take into consideration a lot of 
different factors. Again, it is cost, it is deployment 
capabilities, operations and maintenance for the out years and 
sustainability of the plant. Certainly we would like to get the 
technology that has the broadest application, but we need to be 
making the right decisions early on. Therefore we are exploring 
more than just the gamma capability.
    Senator Bingaman. The GAO has recommended that whatever 
technology is deployed be capable of detecting both; is that 
correct?
    Ms. Jones. That is something that, in talking with the 
vendors, the IAEA and others, that seems to be the best way to 
go, yes, sir.
    Senator Bingaman. I will stop with that. Thank you very 
much.
    Senator Landrieu. Thank you for those excellent questions.
    Senator Roberts.
    Senator Roberts. You are leaving now, Jeff?
    Senator Bingaman. I am leaving.
    Senator Roberts. There is a portal monitor at that door 
[indicating]. There is not one at that door [indicating]. 
[Laughter.]
    Senator Bingaman. All right. I appreciate that.
    Senator Roberts. This brings up again the standards in what 
we are trying to detect and the challenge as I see it. This, I 
guess, is an observation to Ambassador Wulf and to all the 
panel members. What confuses me is it appears that the NSC 
strategic plan, which I am very hopeful will be successful, for 
obvious reasons, is attempting to treat the chem-bio and the 
nuclear detection on the same level, but, as almost every 
panelist has indicated, the chem and bio detection ability is 
in an embryonic stage. We are into R&D on what we do with that, 
whereas the nuclear detection is a technology that has been 
evolved and deployable now.
    I guess my question is, to Ambassador Wulf and maybe Ms. 
Bronson, how can we treat them the same in a strategic plan and 
are we?
    Ambassador Wulf. I totally agree with the premise of your 
question. We are not treating them the same and we do not 
envisage treating them the same. But we think it is important 
that when we look at the question of threats to the United 
States and threats that exist in terms of weapons of mass 
destruction in the former Soviet Union, that we look 
comprehensively. That is what the strategic plan will do.
    Different strategies will be appropriate for different 
weapons, if I can use that phraseology. So for chem-bio we are 
not talking about portal monitoring, in all likelihood. The 
fundamental emphasis undoubtedly will remain to try to keep the 
materials in good hands, as it were, or keep it from getting 
into bad hands.
    The question then for us and the area where we are putting 
our emphasis and where State has the lead is on this question 
of if, despite our best efforts, some nuclear materials or 
radioactive materials get into other people's hands, then the 
subgroup that we are chairing will seek to coordinate and make 
sure that a lot of the issues that have been raised in the GAO 
report and by this subcommittee are addressed and that we do 
have a comprehensive, nonduplicative, and synergistic program.
    Senator Roberts. Did you wish to comment, Ms. Bronson?
    Ms. Bronson. Senator, I agree with what Ambassador Wulf has 
said. The distinction between a comprehensive plan and a plan 
that attempts to treat everything the same I think is an 
important one. I would also, though, caution, as I think other 
speakers have mentioned today, against an approach that is only 
focused on technology. The synergy between the training of the 
individuals to see suspect behavior, patterns of networks that 
could be fed in, those should not be minimized. If we were to 
rely only on a technical approach to the exclusion of other 
sources of information, my fear is we would miss something 
important.
    Senator Roberts. You are going to have, or you have a new 
$40 million weapons of mass destruction proliferation 
prevention program--Lord help us with the acronym; MDDD, how 
about that? No, MDPPP; there, there we go--under the CTR DOD 
program. How is that going to be different or complementary to 
the border security assistance that is currently being done 
overseas by the five other agencies?
    Ms. Bronson. The intent would be, as part of a strategic 
plan, to lay out what exactly is being done in each of the 
specific agencies, to go ahead and assess on a country by 
country and region by region basis what the needs are. Are 
there any particular gaps, are there areas where we have some 
unevenness in our coverage? Then go ahead and try to develop an 
approach that focuses either country by country or border by 
border and looks at where are there areas that marry up with 
DOD's unique expertise and have not yet been filled by other 
members of the interagency team, and then use our comparative 
advantage to go ahead and assist in those areas.
    That will complement the mil to mil kind of training that 
we are doing for the military groups that are often in charge 
of internal security in these countries.
    Senator Roberts. Now, DOD is going to have a brand-new role 
in homeland security. Do you plan to assist in detecting the 
radioactive materials or chem-bio substances at our borders?
    Ms. Bronson. That will be done, but it will not be done by 
my office. We have not yet worked out the institutional 
relationships between which parts of DOD are assisting----
    Senator Roberts. What is your best guess? What would you 
recommend? I am Secretary Rumsfeld. What would you recommend? 
Or I am Condy Rice; there is a real stretch.
    Ms. Bronson. I would say that the two probably ought to be 
separate, but closely coordinated, because the needs that we 
would develop for an overseas capability I think might very 
well be different than the needs we would need at home based 
upon certain kinds of logistics constraints, based upon certain 
kinds of threat assessments.
    So the approaches need to be coordinated, but I am not 
convinced that they would necessarily be exactly the same.
    Senator Roberts. Ambassador Wulf, I meant to ask you, the 
GAO report recommends in order to help determine the 
effectiveness of detection assistance overseas, our U.S. 
agencies should request the recipient country to provide the 
United States with information on items found by its detector 
equipment. I sort of thought that was obvious, to say the 
least.
    Based on your experience--and this was brought up by Ms. 
Bronson--what steps would you recommend to carry out this 
recommendation? Is this not being done now?
    Ambassador Wulf. It is being done. One of the problems, 
obviously, is that countries are very reluctant to, shall we 
say, be completely forthcoming in the problems that they have 
encountered in maintaining their own borders or maintaining 
materials within their borders. But one of the things that we 
are hoping that the advisers that we have now put in place in 
many of the countries receiving this assistance is that they 
will be able to persuade, cajole, and otherwise obtain this 
information that has not been shared as fully as we would like. 
But it is definitely being collected.
    Senator Roberts. My time has expired, but if you do not 
mind I will ask one other question. This is for Ms. Bronson and 
for Mr. Caravelli. As I recall, Madam Chairman, in the March 6, 
2002 hearing we asked Mr. Crouch of the DOD and Ambassador 
Brooks of DOE what their agencies were doing to coordinate 
their respective border assistance programs to ensure that 
these efforts were not duplicative, were complementary, and 
effectively implemented with each other.
    The question was taken for the record. We have not gotten 
an answer back. We would like to get an answer back. You are 
helping to get that answer back today. Just sort of put a flag 
on that if you might.
    Portal monitors that you install--and this is for the 
Department of Energy--have a monitor that logs the use of the 
monitor. Based on that information in your statement, your 
Second Line of Defense equipment has logged over 400,000 
vehicles, 22,000 railcars, 2,000,050 pedestrians since 1999. 
You state, based on this, you think it is highly unlikely that 
a significant amount of nuclear material has been smuggled 
successfully through the sites that have deployed your 
equipment.
    Are any other U.S. agencies utilizing this kind of tracking 
with their equipment? I think the answer is no. Would the use 
of this monitoring facilitate the GAO recommendation in regard 
to the need for better information sharing between the 
recipient country and U.S. agencies, which is what I was asking 
Ambassador Wulf?
    Feel free to jump in any time.
    Could you deploy this equipment at U.S. borders with any 
good results? I am talking to Mr. Caravelli. I am sorry, I 
should have made it clear.
    Mr. Caravelli. No, yes, yes comes to mind. [Laughter.]
    Senator Roberts. Well, that would give us a lot of, it 
seems to me at least, some degree of movement here. I did not 
mean to be too flip about that. This is not a flip issue. But 
did you get the gist?
    Mr. Caravelli. Senator, I believe I did. I am not the one, 
of course, to speak to what we are doing domestically. Others 
here can speak to that much better than I. We can only share 
with you the experiences and lessons learned from our 
partnering with the Russian customs service, but it is hard for 
me to believe that anyone would disagree with the premise that 
this dialogue with the host government and getting the data 
tapes, if you will, and the insights as to what the monitors 
are doing, is anything but highly, highly desirable.
    Senator Roberts. Madam Chairman, my time has long expired. 
I have about three more questions and then I am done, but 
whatever--Senator Allard has just come in.
    Senator Landrieu. Senator Allard has just come in, but why 
do we not take a moment, Senator. Let me just ask one question 
for the record, if I could, additionally.
    That is about the in-country advisers. I understand from 
the report we have 22 in 25 countries. Maybe, Ms. Jones, you 
could start and anyone else could jump in, just a brief answer 
about the effectiveness of these advisers. I understand they 
are funded by State, but hired by Customs. Are they well enough 
staffed? Are their roles--do you think their roles are 
important? If so, in what way? Could we do anything to make 
this effort more robust? Are they helpful or should we go to a 
different kind of system?
    Ms. Jones. I think, based on the work that we did, Senator, 
they were extremely helpful. They served a number of different 
purposes. Most of them are retired Customs officials, so they 
have a lot of background in these areas. They are serving a lot 
of purposes in terms of checking on the equipment that has been 
delivered, see that it is being used. They are helping to 
calibrate, they are helping to train on the ground, they are 
helping countries decide who should go to training in the 
United States.
    So it has been a very, very useful, I think, thing to have. 
Whether or not there are enough of them, I really cannot speak 
to that. But certainly it has been very, very useful.
    Senator Landrieu. Did you--I am assuming you talked to 
either all of them or most of them in drafting this report. 
What was their comment?
    Ms. Jones. We did talk to some. We certainly did not talk 
to all. They felt that they were doing a good service in terms 
of improving the delivery of equipment and training for U.S.-
sponsored border security program.
    Senator Landrieu. Was there anything that they asked for, 
or that came out in their interviews or comments with you, that 
you would like to put on the record?
    Ms. Jones. What I would like to do, Senator, is check with 
my team that actually spoke with these advisers to see if there 
is anything we would like to add for the record in terms of 
specifics.
    [The information referred to follows:]

    We were told by some in-country advisers that they could use 
clearer guidance from the State Department regarding their appropriate 
roles and responsibilities. Some felt that they were uncertain how much 
of their time should be spent on nuclear detection assistance versus 
generalized border security activities. They did believe, however, that 
in general, they were receiving good support from the State Department, 
the U.S. Customs Service, and U.S. embassies.

    Senator Landrieu. I am going to recognize Senator Allard 
and then I have a few more questions, and then Senator Roberts 
may have one or two. I would like to finish up right about 
4:30.
    Senator Allard.
    Senator Allard. Madam Chairman, thank you. Just a couple 
questions I do not believe have been covered.
    Apparently, the GAO described in its nuclear 
nonproliferation report that the installation, use, and 
maintenance of equipment provided to Russia and other countries 
by the U.S. was not up to par. Are you aware of any corrective 
actions being taken by the Department of Energy or the 
Department of Defense or State Department to ensure that the 
equipment provided is used and maintained properly? If so, can 
you please describe some actions?
    Ms. Jones. I think one of the actions is actually the 
advisers that we were just speaking about. I think that those 
advisers, being on the ground, have been able to target where 
maintenance issues are. So I think that has been also helpful. 
I think in the testimony today the State Department is now 
going to be working with the Department of Energy to have the 
Department of Energy go over and repair and maintain this 
equipment. So I think there have been strides, Senator Allard.
    Senator Allard. I think, to get to the second question I 
would have, and this is something that Congress in general has 
emphasized in all the agencies, to figure out some way of 
measuring results, not just numbers and whatnot. On the 
nonproliferative programs, have you established a way in which 
you can apply, I think it is GPRA? This is the Results Act that 
Congress passed and wanted all the agencies to be able to 
follow, where they can look back and say, all right, here is 
our goals, they are measurable, and at the end, rather than 
just saying, well, how much money is in the program, where you 
can actually measure results?
    Have you figured out a way of putting that kind of program 
in place?
    Ms. Jones. I think these are very difficult programs to 
have those kinds of measures for. But what we have asked for as 
part of the strategic plan, the Government-wide strategic plan, 
is that we would look to the agencies involved to come up with 
performance measures that might help us identify how we spent 
the money, and is it being effective.
    I think one of the things we have talked about today is, is 
the equipment continuing to work. The kind of information that 
we would like to get back from the various countries in terms 
of what kind of material has been detected using this equipment 
might be one of the performance measures you would use for this 
program.
    Senator Allard. Thank you, Madam Chairman.
    Senator Landrieu. I think that was an excellent question, 
Senator. It prompted me on this other, which is really about, 
in order to have a good measure--and I know it is going to be 
very difficult and quite complicated; this is not your simple 
program here, which is obvious. But one of the ways or things 
you would need to get a measure is a pretty accurate inventory 
of the materials that we are trying to track and identify and 
keep out. In order to keep something out, we kind of have to 
know how much is in, so that we know.
    My question would be what each of you would testify for the 
record, either is your confidence high or low, or how would you 
describe it in terms of the confidence level, that our 
inventory currently today is accurate about where this material 
is? How much of it is in all 30 countries, in 30 seconds each? 
Do you have a high level, low level?
    Ms. Jones. I think my 30 seconds is going to expire pretty 
quickly. I am not sure that I have the information to respond 
to that. I think I would turn to other members of the panel, 
particularly Mr. Caravelli.
    Senator Landrieu. Mr. Caravelli, would you say you have a 
high level of confidence that you know what the inventory is in 
the 30 countries, not the worldwide, which is a whole different 
topic, but in the focus of our hearing of the 30 countries?
    Mr. Caravelli. Senator, on the nuclear side our confidence 
is reasonably high for many of those countries. I would not 
want to characterize with any broad brush what we know or do 
not know with 30 countries. It is just too much. There are too 
many individual differences to give you an answer that I felt 
comfortable with that would try to provide that.
    I will tell you on the radioactive side, the radioactive 
source side, that my personal confidence and I think the 
Department's for virtually all of those countries would be 
very, very low. It is a daunting problem. I returned from 
Russia last week and we learned a great deal just from 
discussions with Russian counterparts on radioactive sources 
that they have that, frankly, I think came as a real surprise 
to all of us here.
    So I think the best case, in some countries the nuclear 
side, reasonably good; in many cases, if not all, on the 
radioactive side our confidence in terms of amounts and 
locations and security is low.
    Senator Landrieu. Ambassador Wulf.
    Ambassador Wulf. I would share Mr. Caravelli's assessment, 
I think. One of the things, obviously, in this business is you 
do not know what you do not know. We think and we have reason 
to believe that we have reasonable confidence with respect to 
the amount of nuclear materials in most of these countries.
    With respect to radioactive materials, I totally agree. 
From everything we have been able to ascertain working with the 
IAEA, talking with the countries concerned, they have no idea 
and we do not either.
    Senator Landrieu. Mr. Ahern.
    Mr. Ahern. Just briefly, I think the confidence level is 
something I will pass on, but to the specific question of the 
measures, I think it is something that we could address. 
Certainly the advisers that are over there could look at 
establishing some measures, and the measures of success are not 
solely on interdiction alone. The number of incidents of 
violation are most likely too remote and too few to have any 
good standard measure they could prove to a level of high 
efficiency on the utilization and deployment of this 
technology.
    But I think some of the things we certainly could measure 
is the deployment and utilization rates of this technology. 
This is one of the things that we currently do with the 
technology that we have deployed in the field here at our U.S. 
borders. It might be something they could deploy over there. It 
is utilization rates. During the hours of the day, how many 
scans are actually done with the types of technology, and 
measure the down time, then take a look as far as some of those 
types of things, because truly the incidents of violation will 
be so insignificant in number. Although the significance of a 
violation is substantial, the numbers will be so insignificant 
it may not be measurable.
    But certainly utilization rates are something we should 
look at. It is also very hard to measure values of prevention 
and deterrence, which certainly are there when you have these 
deployed at source countries.
    Senator Landrieu. I think, though, it is a point. An 
accurate inventory I think is quite essential and we may not 
know everything in every country, but I think the process of 
getting an accurate inventory country by country is quite 
important. I think some sort of measure that can tell us about 
the level of training of those that we are asking to conduct 
the business and the thoroughness to which those individuals 
are trained is another potential measure.
    Obviously, the effectiveness of the equipment that we are 
using and the deployment of the types of equipment is one 
potential measure, and the level of cooperation between the 
countries is another.
    I am going to ask each of you, not now, but to submit for 
the record, a matrix which the staff is going to prepare to 
have you all rank some of the inventory questions country by 
country, just to see if there is any consensus about what we 
know and what we do not know per country of the 30 that we are 
discussing.
    Now, that completes my series of questions. I think we have 
covered everything. I am going to check with the staff to make 
sure. Senator Roberts, while we are doing that would you like 
to have one or two more questions? Senator Allard, you would be 
entitled to additional time too.
    Senator Roberts. Mr. Ahern, in regards to Customs--and I am 
quoting from your testimony here: ``Customs is currently 
conducting field tests in support of radiation detection 
systems to determine system capabilities and to develop 
procedures and response protocols. A challenge will be our 
ability to differentiate between the numerous consumer goods, 
such as cement, porcelain, potash, bananas, that may give off 
radiation, as well as medical isotopes that are given to 
humans, versus detecting the smuggling attempts.''
    There may be, I think, a tendency in this whole effort to 
look for what I call the ultimate detector. I am taking it for 
granted that we might not be taking advantage of existing 
commercial off-the-shelf radiation detection equipment. I am 
talking about the portal monitors that I said before to Senator 
Bingaman that are available now, that could be developed 
immediately, to some of the most sensitive U.S. border 
crossings. We could really target that, and the ports of entry.
    Russia has these detectors. I am sure they have very 
similar challenges in trying to differentiate between porcelain 
or maybe, say, plutonium. But these detectors are being 
deployed with our assistance and I think they are working.
    What are your views in regards to a Second Line of Defense 
in regards to this kind of equipment, something off the shelf 
as opposed to the R&D that we are going to do by the year 2000 
whatever?
    Mr. Ahern. It is pretty much our intention at this point to 
go ahead and get off-the-shelf technology and deploy it. But we 
again want to make the right decision on what is available 
currently to deploy in our operational environment. There will 
most likely be a variety of different types of portal devices 
that will be deployed at land border ports, seaports, as well 
as air cargo facilities, mail facilities, and courier 
facilities.
    So we will be making those decisions most likely off the 
current off-the-shelf technology. I do not believe there is 
going to be a substantial amount of R&D time that is going to 
be involved with this.
    Senator Roberts. Give me a time frame, just an estimate.
    Mr. Ahern. We will have our determinations made in 
September for the deployment of the 172 and we will have those 
implemented in the fiscal year 2003.
    Senator Roberts. Well, you will do that faster than we pass 
homeland security, will you not?
    According to an article in the June 13 Toronto National 
Post, the Canadian customs officers at border crossings and 
ports are being issued radiation detectors to find dirty bombs 
and stop them from being smuggled into the United States. By 
mid-July--that is now--all 3,600 customs officers will be 
outfitted with sophisticated geiger counters. The radiation 
equipment purchased by the Government includes gamma X-ray 
systems at ports, land crossings, and airports, as well as 
other state-of-the-art technology.
    Again, I am quoting from the Toronto National Post. 
``Canada and U.S. officials are working closely to catch 
terrorists by sharing data and information on goods and 
individuals coming into both countries.''
    So I guess my question is what is the level of coordination 
between U.S. Customs and the Canadian Customs? I think I have 
already said the answer. Obviously, we are working together 
quite well. But I am going to toss Mexico into the equation. 
Give me an assessment in regards to Canada and also Mexico?
    Mr. Ahern. Certainly. We have had a very high level of 
coordination and collaboration with the Government of Canada 
over the last several months. Our Commissioner has been meeting 
repeatedly with the Customs Commissioner of Canada on issues 
such as technology deployment. Certainly our deployment of 
three Customs officers in the ports of Halifax, Montreal, and 
Vancouver, with reciprocal agreements for them to station 
officers at three ports of entry here in the United States, is 
an example of that high level of collaboration.
    On the Mexico side, we have been doing a lot with Mexico to 
take a look at the variety of different initiatives we can work 
together on as well. We are working at using advanced passenger 
information through their airport systems to try to go ahead 
and target travelers coming through Mexico that may be destined 
for the United States as well.
    We are also currently doing a joint currency interdiction 
initiative in Mexico City and we will be taking it out to 
further locations within the next 30 days.
    Senator Roberts. I thank you for your response.
    Madam Chairman, I again want to thank all of the witnesses 
and more especially Ms. Jones and the GAO for your very fine 
work. It is always a GAO report where the glass is somewhat 
half empty and all of the people involved in the report always 
say, wait a minute, the glass is more than half full. But I 
think it is a good synergy that we have had today and I 
appreciate your holding the hearing.
    Senator Landrieu. Thank you, Senator Roberts, for 
initiating it.
    Senator Allard, any additional questions?
    Senator Allard. Chairman Landrieu, just one question. I 
want to use a specific example and just kind of get your 
response to it. I have been reading where Iran is moving 
forward with a nuclear power plant and the construction of that 
power plant is with the aid of Russia.
    Would you talk to me a little bit about what special 
problems this creates for the border on Russia and how you see 
that as a potential problem for your jobs?
    Ambassador Wulf. The biggest problem that we have at the 
State Department is not necessarily a small power reactor, but 
what we see is that this provides an opportunity for a lot of 
other activities to be taking place under the rubric of the so-
called cooperation in peaceful nuclear energy. That is what 
bothers us the most. I am not sure if it is a border issue per 
se as much as technicians going from both directions, going 
from Iran to Russia and Russians going to Iran.
    Often--sometimes we are confident talking about things that 
have not so much to do with nuclear energy, but with other 
aspects of nuclear materials.
    Senator Allard. Where does Iran get its nuclear materials? 
From Iran or is it from Russia?
    Ambassador Wulf. Well, they have natural uranium in 
country, but they do not have the capability to process that, 
to run a Soviet-style or Russian-style reactor. So they are 
also seeking to acquire--and this was obviously an area of some 
concern--some capability to enrich their own uranium so that 
they could power that reactor. It is the infrastructure that 
supports the reactor that also is a concern for us, and it is 
an area of continuing conversation with the Russians. Under 
Secretary Bolton is in Moscow as we speak, as is Secretary 
Abraham, discussing this very issue.
    Senator Allard. Do they have a way of disposing of that 
that we know of, or how do they plan on disposing of material 
from the nuclear power plant?
    Ambassador Wulf. The question of the disposition of the 
spent fuel is an area obviously of great concern as well. We 
would like--and I understand the Russians have stated that they 
are prepared to take back the spent fuel. We want it to be, if 
that reactor is to go forward--and obviously we would prefer 
that it did not--
    Senator Allard. Now, if they take that back does that mean 
that--we have an agreement to take their nuclear materials from 
power plants. Our thought is that we put it in the MOX facility 
in North Carolina. So is that going to end up back in this 
country here for the oxidization process in South Carolina?
    Ambassador Wulf. I do not believe so. The plan would be 
that Russia would take back, if this were to go forward, would 
take back the spent fuel and it would not be reprocessed, but 
stored in Russia.
    Senator Allard. I see.
    Senator Roberts. Would you yield on that point, Senator?
    Senator Allard. Yes.
    Senator Roberts. Since the distinguished Chairman and I, as 
you well know, have the jurisdiction of the CTR programs and 
since we spend about $1.2 billion each year on them, and since 
we have worked very hard to establish appropriate criteria, and 
since the administration has asked for a waiver in regards to 
at least the first point of that criteria, i.e., can we certify 
we know in regards to Russia the source of all of their weapons 
of mass destruction, the secret cities, and all the things that 
they are into--there is this school of thought now with the 
Iranian situation, and here we are trying to help them clean up 
their old junkyard, pardon my terminology, and take down their 
capability, have a nuclear cities program, an Initiative for 
Proliferation Prevention (IPP) program, a Nunn-Lugar program, a 
very popular program, hopefully a very effective program, but 
they are building a new junkyard over in Iran.
    Yet it would seem to me that one of the prerequisites that 
we would have before we are spending American taxpayer money to 
the tune of $1.2 billion, that at least both countries would 
share the same nonproliferation policy, that I think would 
certainly benefit both countries. I found the news and, quite 
frankly, the intelligence reports in regards to Iran and what 
the Senator from Colorado is talking about very disturbing.
    So, Ambassador Wulf and Ms. Bronson, whatever you have to 
do in regards to the CTR program and dealing with the Russians, 
we have worked very hard to try to forge a compromise with the 
House, where they have had serious concerns about this. I do 
not think it is any stretch of the imagination to say that the 
distinguished Chairman and myself applied CPR to the program in 
terms of the criteria that have been accepted, only to find out 
that this is going on now. I am just predicting storm clouds, 
and you cannot find a stronger proponent than I am in regards 
to CTR and what we are trying to do.
    I just want to make that comment publicly and send a big 
message that this is of real concern to us. I truly appreciate 
the Senator yielding.
    Senator Allard. Thank you, Senator.
    Senator Landrieu. Thank you. It has been a very excellent 
hearing and that is a serious note to end with. But this is an 
important hearing. We have a lot of important work to do.
    Thank you all very much.
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator Pat Roberts
                       executing recommendations
    1. Senator Roberts. Ms. Jones, based on your review and the 
findings, what do you see as being the greatest impediments in 
executing these border security programs and what would you recommend 
to overcome these?
    Ms. Jones. As we noted in our report, there are several factors 
that affect the success of U.S. efforts to help other countries combat 
nuclear smuggling. First, the current U.S. programs that are underway 
need to be better coordinated. The most troubling consequence of the 
lack of coordination is that DOE, State, and DOD have pursued separate 
approaches to installing radiation detection equipment at countries' 
border crossings. As a result, some countries' border crossings are 
more vulnerable to nuclear smuggling than others. Regarding the issue 
of coordination, we recommended in our report that, among other things, 
the Secretary of State take the lead in facilitating the development of 
a governmentwide plan to help develop an integrated approach to combat 
nuclear smuggling. The plan should, at a minimum, identify (1) a 
unified set of program goals and priorities, (2) overall program cost 
estimates, and (3) time frames for effectively spending program funds.
    Another impediment we identified concerned the installation, use, 
and accounting for of U.S.-supplied radiation detection equipment. 
These problems resulted largely from the lack of oversight and follow-
up of by some of the U.S. agencies providing the equipment. We found, 
however, that the situation was improving since the State Department 
began placing in-country advisors (generally retired U.S. Customs 
Service officials) in many of the countries receiving U.S. assistance a 
couple of years ago. State is using the advisors to improve equipment 
sustainability and facilitate routine maintenance and equipment repair. 
In addition, the advisors are responsible for inventorying equipment 
and assessing its effectiveness.
    There are also other impediments that impact U.S. efforts which may 
be harder to address. For example, many countries' border organizations 
suffer from pervasive corruption. The U.S. is trying to address this 
problem and in fiscal year 2002, the U.S. Customs Service started 
providing anti-corruption courses as part of their training program for 
foreign border guards.

                        proliferation prevention
    2. Senator Roberts. Ms. Bronson, how will the new $40 million 
Weapons of Mass Destruction Proliferation Prevention Program (WMDPPP) 
under the Cooperative Threat Reduction/Department of Defense (CTR/DOD) 
program be coordinated within DOD and the International 
Counterproliferation Program (ICP) run by another office in DOD? What 
areas will the ICP focus on that will complement or differ from the 
WMDPPP? 
    Ms. Bronson. We have coordinated closely within DOD on the 
development of the WMDPPP from its inception to ensure that it 
complements, not duplicates ongoing ICP assistance. I coordinate 
developments in WMDPPP on a regular basis with Deputy Assistant 
Secretary for Eurasia who oversees the ICP. We anticipate continued 
close collaboration between all relevant DOD offices as we continue ICP 
activities and begin to implement WMDPPP after Congress provides the 
necessary authorization and appropriations.
    The ICP program will continue to provide assistance to law 
enforcement and border security agencies through the DOD/FBI and DOD/
U.S. Customs Service Counterproliferation programs. The DOD/FBI program 
trains and equips law enforcement agencies in preventing, deterring and 
investigating incidents involving WMD and cross-border trafficking in 
WMD. The DOD/USCS program provides training and equipment to enhance 
FSU border enforcement capabilities in interdicting and investigating 
WMD smuggling efforts.
    Unlike the ICP, the WMDPPP will have an added focus on the 
ministries of defense (MODs) and other security ministries in the FSU 
countries. Through such assistance, DOD will assist former Soviet 
states to develop the operational capabilities required to achieve a 
fully functioning, self-sustaining, integrated, multi-agency capability 
to prevent the proliferation of WMD, related materials and technologies 
to terrorists and proliferant states. In addition to the security 
ministries, DOD is likely to provide assistance to other ministries as 
well in an effort to develop projects designed to produce comprehensive 
operational capabilities as part of an U.S. Government strategic plan 
and country/regional requirements. We will use a prototype approach 
that carefully develops a project in one country, then replicates it in 
others after we have determined its viability. These projects will help 
the recipient country develop organic, self-sustaining operations and 
maintenance capabilities. We will closely coordinate implementation of 
WMDPPP with other U.S. Government agencies to provide complementary, 
non-duplicative assistance.

    3. Senator Roberts. Ms. Bronson, what do you plan to do first under 
this new Initiative and how will the funds authorized in fiscal year 
2003 be spent?
    Ms. Bronson. We are working with the Department of State and other 
agencies to develop a U.S. Government wide strategic plan for WMD 
border security assistance to ensure that DOD's efforts complement and 
do not duplicate those of other agencies. We have developed several 
prototype projects that we anticipate undertaking with fiscal year 2003 
funds. Examples of the types of projects being considered under WMDPPP 
include:

        <bullet> Improving Kazakhstan's border control infrastructure 
        at its major border crossing with Turkmenistan and deploying a 
        ground sensor network along the Kazakh-Turkmen land border to 
        detect illicit trafficking.
        <bullet> Supporting Ukraine's plans to develop mobile response 
        teams to respond to WMD trafficking incidents along land 
        borders in sensitive areas.
        <bullet> Completing deployment of portal monitors at key border 
        crossings in Uzbekistan begun under ICP to detect illicit 
        trafficking in nuclear materials.
        <bullet> Providing Azerbaijan a maritime surveillance radar 
        network to detect and direct interdiction of illicit 
        trafficking in the Caspian Sea off its southern coast.
        <bullet> Developing a Regional Training Center to provide 
        realistic training on border control operations and procedures 
        to prevent illicit trafficking in WMD and related materials.
        <bullet> Developing a Crisis Action Center in Uzbekistan to 
        enhance the capability of the Uzbeks to command and control an 
        interagency response to WMD trafficking incidents.

    4. Senator Roberts. Ms. Bronson, will the CTR WMDPPP provide 
equipment to recipient countries to detect nuclear materials? If so, 
what standards will you use for detection? Will you utilize the 
Department of Energy's Second Line of Defense equipment for nuclear 
detection purposes?
    Ms. Bronson. Currently, we do not anticipate any major new projects 
under WMDPPP that would entail providing equipment to detect nuclear 
materials. In response to a specific request from the Uzbek ambassador, 
however, we are working within DOD and with other U.S. Government 
agencies to determine how best to complete the deployment of portal 
monitors to detect illicit trafficking in nuclear materials at key 
border crossings in Uzbekistan. This project originally was initiated 
under the ICP's DOD/U.S. Customs Service program with the support of 
Lawrence Livermore National Laboratory and funded using CTR Defense and 
Military Contact Funds. The portal monitors already deployed are the 
same type that DOE uses in its Second Line of Defense program. As we 
develop the follow-on portal monitor project for Uzbekistan, we also 
will be guided by the interagency approved strategic plan and standards 
for detection equipment that we expect to result from the efforts of 
the State-led interagency working group on International Nuclear 
Detection.
    In addition, we may provide hand-held radiation detection equipment 
as an element of a broader WMDPPP project designed to establish fully 
capable teams to respond to potential trafficking incidents at the 
border. We must coordinate the development of such projects with DOE 
and other USG agencies to ensure consistency in the type of equipment 
provided and to ensure it meets the standards established via the 
process described above.

                      nuclear smuggling assessment
    5. Senator Roberts. Mr. Caravelli, according to testimony given at 
the July 30, 2002 hearing, DOE has taken the lead to develop a global 
nuclear smuggling threat assessment with Intelligence Community input. 
What is the status of this assessment and based on the findings, how 
will this drive the interagency strategic plan on nuclear smuggling?
    Mr. Caravelli. The Office of International Nuclear Material 
Protection and Cooperation, through its Nuclear Assessment Program, 
assesses nuclear extortion threats directed against the United States 
or its interests and provides analysis of reports of illicit 
trafficking of nuclear or radioactive materials. Since the early 1990s, 
hundreds of formal nuclear material transaction analyses (nuclear 
smuggling) have been produced, catalogued in a central database, and 
forwarded to requesting agencies.
    Currently, the Office of International Nuclear Material Protection 
and Cooperation, through its Second Line of Defense Program and 
supported by its Nuclear Assessment Program, is coordinating with the 
Department of State on a global strategic plan for nuclear detection. 
Based on its experience in Russian site prioritization, DOE/NNSA is 
creating a global nuclear smuggling threat assessment/pathway analysis. 
This product will support decision making on issues of resource 
allocation and site upgrade prioritization. The first full version of 
this pathway analyses is planned to be available within 6 months and it 
will be refined and updated thereafter.

                     second line of defense program
    6. Senator Roberts. Mr. Caravelli, in his testimony, Ambassador 
Wulf described the new efforts underway in the Department of State, 
Bureau of Nonproliferation's overseas radiation detection projects. 
According to Ambassador Wulf, the Department of Energy's Second Line of 
Defense (SLD) program recently agreed to take on the repair and 
replacement of a large array of detection equipment overseas on a 
global basis. This equipment includes portal monitors, hand held 
isotopic identifiers and radiation pagers, and x-ray vans equipped with 
gamma detectors. With the transfer of this vital maintenance and 
upgrade program to SLD, repairs will be made more swiftly than in the 
past and obsolete or marginal equipment overseas will be systematically 
upgraded to the highest state-of-the-art technology appropriate for the 
particular country.
    What are the costs to DOE to repair and replace this detection 
equipment that the State Department delivered overseas and in your view 
why has it been necessary to repair or replace equipment that is 
relatively new?
    Mr. Caravelli. The agreement in place between the State 
Department's Bureau of Nonproliferation and DOE's Second Line of 
Defense program is a multi-year project that covers the support and 
periodic maintenance of radiation detection equipment that the USA has 
provided. The cost to DOE of repairing systems that are non-functional 
and systematically upgrading systems is estimated at $8.9 million over 
3 years. This figure is based on preliminary information about the 
status of systems already in the field and will be modified as more 
information becomes available. It may be necessary to repair and 
upgrade some equipment, because of operational or system integration 
considerations. To the extent possible, upgrades will be made to 
priority sites to make them more consistent with Second Line of Defense 
equipped sites. These detection systems are the only tool availble--
other than good investigative skills and tips for border enforcement 
officials--to know when fissile material is being smuggled.

    7. Senator Roberts. Mr. Caravelli, have you concluded an agreement 
with Russia on the SLD program which would, among other things, provide 
for greater rights of access to information about materials detected by 
U.S. funded radiation detection equipment installed in Russia? Will you 
require similar agreements with Kazakhstan and Ukraine?
    Mr. Caravelli. We have not yet concluded a formal agreement with 
Russia on the SLD program. We have developed a draft implementing 
agreement with Russia's State Customs Service that is undergoing 
interagency review. However, we continue to have an excellent working 
relationship with Russia's State Customs Committee, which is the 
implementing agent for the SLD program in Russia. This partnership 
currently allows U.S. rights of access to information about the use of 
U.S. supplied equipment as well as nuclear and radioactive materials 
detected by them. We will continue to work with our Russian 
counterparts on a more formalized structure of agreement. Similar 
agreements with Ukraine and Kazakhstan may be necessary to specifically 
address these same requirements. We are currently reviewing existing 
agreements with the State Department's Nonproliferation Bureau to 
determine the best course of action.
                                 ______
                                 
                Questions Submitted by Senator Bob Smith
                            port inspections
    8. Senator Smith. Mr. Ahern, in assessing America's vulnerabilities 
(and perhaps we do this in far too public a manner), it's no secret 
that we have a porous southern border, and that our Customs inspections 
are extremely limited. What good are a range of new or more high-tech 
detection devices, if we are only capable of handling 1 or 2 percent 
inspections of cargo being unloaded at our docks, and if our 
intelligence is lacking in terms of targeting which shipments merit 
more scrutiny than others? If we are serious in countering nuclear 
smuggling, we have to be serious about solutions. In the past 
administration, we had a Department of Energy that permitted foreign 
visitors, including from hostile nations, to run amok through our 
nuclear weapons laboratories, and where staff could leave with 
diskettes in their shirt pockets, undetected. If you were a nuclear 
smuggler, would you be deterred by a country that conducts only 2 
percent port inspections, and is lax about border security?
    Mr. Ahern. In fiscal year 2001, the U.S. Customs Service conducted 
enforcement examinations of approximately 2 percent of the 5.7 million 
arriving sea containers, depending on the risk associated with the 
cargo's origin and routing. The 2 percent inspection rate erroneously 
implies that the remaining 98 percent of arriving sea containers 
receive no attention or scrutiny at all from Customs. This is simply 
not true. Customs thoroughly screens and examines 100 percent of the 
shipments that we have identified that may pose a risk to our country. 
Customs screens the data and information for all 5.7 million cargo 
containers arriving in the U.S. each year and closely scrutinizes and 
examines all shipments identified as high risk. The Customs Service has 
developed a multi-layered process to target high-risk shipments while 
providing efficient processing of legitimate trade.
    Customs employs a systematic, risk-management targeting system to 
screen all sea cargo entering the United States. U.S. Customs 
electronically receives advance manifest and entry information that is 
voluntarily provided by carriers and shippers and uses this data to 
conduct the research and analysis needed to target containerized cargo 
for examination prior to its arrival. Customs receives this advance 
information for nearly 98 percent of all containerized cargo. Special 
targeting teams analyze this data to identify trends and anomalies in 
data that lead to informed, risk-based decisions on which shipments to 
inspect.
    In addition, to address the threat of smuggling in commercial cargo 
and conveyances and the threat of internal conspiracies at high-risk 
seaports throughout the Nation, Customs has deployed and continues to 
deploy non-intrusive inspection (NII) systems to seaport locations. NII 
systems provide the added benefit of increasing the total number of 
intensive inspections performed daily and allow for examination of very 
difficult commodities and conveyances. Customs inspectors use large-
scale gamma and x-ray machines to scan the contents of containers. 
These units are capable of scanning the interior of a full size 40-foot 
container in approximately 90 seconds. Additionally, inspectors also 
use personal radiation detectors to scan for the presence of 
radioactive material. These systems combined, give Customs the 
capability to perform thorough examinations of cargo and conveyances 
without having to resort to the costly, time consuming process of 
unloading cargo for manual searches, or intrusive examinations of 
conveyances by methods such as drilling and dismantling.
    Since September 11, in addition to the pursuit of additional 
technology and to complement our layered enforcement approach, Customs 
has initiated international cooperative partnerships to improve the 
security of goods crossing our border while minimizing the impact on 
trade. The U.S. Customs Service and major importers joined forces in 
the Customs-Trade Partnership Against Terrorism (C-TPAT) program. C-
TPAT is a cooperative effort to heighten security along the entire 
supply chain and provides the trade with a framework for performing an 
important role of protecting our nation against terrorism. Customs is 
working with foreign manufacturers, exporters, carriers, importers and 
other industry sectors to help them develop internal procedures that 
will ensure the integrity of their security practices. Participants 
have agreed to take stringent security steps and in return receive 
expedited processing and reduced examinations.
    Through the Container Security Initiative (CSI), Customs is pushing 
security out from our border by working with nations around the world 
to screen high-risk containers that are bound for the United States 
before those containers leave from foreign ports. Customs has partnered 
with the Canada Customs and Revenue Agency (CCRA) to pre-screen sea 
containers under the Container Security Initiative (CSI). Under this 
program, U.S. and Canada Customs have placed inspectors at one 
another's major seaports. Cargo arriving in Halifax, Montreal and 
Vancouver destined for the U.S. is pre-screened in Canada by targeting 
teams consisting of both Canadian and U.S. Customs inspectors. 
Conversely, cargo arriving at the seaports of Seattle/Tacoma and Newark 
and destined for Canada is pre-screened at these U.S. ports by Canadian 
and U.S. inspectors. U.S. Customs has recently signed agreements with 
the governments of the Netherlands, Belgium and France that will place 
our inspectors in Rotterdam, Antwerp and Le Havre. It is anticipated 
that other ports in Europe and Asian will sign up in the near future.
    Customs will continue a layered defense approach by pursuing a mix 
of technologies to non-intrusively examine cargo and through the 
expansion of cooperative partnerships such as C-TPAT and CSI to 
increase the security of sea containers while facilitating the movement 
of legitimate trade.

                        russian nonproliferation
    9. Senator Smith. Mr. Caravelli, there continue to be reports of 
theft in Russia of highly enriched uranium or of material useful to 
build a ``suitcase nuke.'' I am attaching an article mentioning these 
reports from the publication, Russia Reform Monitor. Can you comment on 
these incidents, and whether we should continue to expend several 
hundred million dollars a year in Russia attempting to stop 
proliferation, when the Russians don't appear to be very serious about 
exercising control over these dangerous materials?
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Mr. Caravelli. In May 1997, retired Russian General Alexander Lebed 
alleged to a U.S. Congressional delegation that, as Russian President 
Yeltsin's top defense expert, he had discovered in 1996 that the 
Russian military could not account for 48 of 152 Special Atomic 
Demolition Munitions (SADMs). In a subsequent interview on ``60 
Minutes,'' General Lebed stated that 100 out of 250 devices were 
missing. It is possible that these statements were politically 
motivated. The Russian Ministry of Defense denied the allegations at 
the time, and has many times since then strongly denied that any such 
devices are unaccounted for. In addition, DOE/NNSA has no evidence to 
corroborate General Lebed's claims.
    To date, the DOE/NNSA nuclear material protection, control and 
accounting (MPC&A) program has made improvements of varying degrees to 
the security of around 480 of the estimated 600 metric tons of weapons-
usable nuclear material residing in Russia. The remaining amount is 
still in the process of receiving the full range of security upgrades 
as determined necessary by the program's technical experts. Sporadic 
allegations of theft or diversion of nuclear materials are not 
indicative of failure on the part of the MPC&A program to accomplish 
its mission of protecting weapons-usable nuclear material in Russia. 
Rather, they serve to demonstrate the continuing urgency of the 
program's mission because the theft or diversion of even small amounts 
of fissile material could pose a significant threat to United States 
security interests.

    [Whereupon, at 4:35 p.m., the subcommittee adjourned.]

                                 <all>

</pre></body></html>
